<html>
<title> - ROUNDTABLE ON COMMUNICATION AND MINE SAFETY TECHNOLOGY</title>
<body><pre>[Senate Hearing 109-379]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-379

         ROUNDTABLE ON COMMUNICATION AND MINE SAFETY TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EMPLOYMENT
                          AND WORKPLACE SAFETY

                                 OF THE

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

       EXAMINING COMMUNICATION AND MINE SAFETY TECHNOLOGY ISSUES

                               __________

                           FEBRUARY 15, 2006

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
26-116 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman
JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
WILLIAM H. FRIST, Tennessee          CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS, Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel

            Subcommittee on Employment and Workplace Safety

                   JOHNNY ISAKSON, Georgia, Chairman
LAMAR ALEXANDER, Tennessee           PATTY MURRAY, Washington
RICHARD BURR, North Carolina         CHRISTOPHER J. DODD, Connecticut
JOHN ENSIGN, Nevada                  TOM HARKIN, Iowa
PAT ROBERTS, Kansas                  BARBARA A. MIKULSKI, Maryland
MICHAEL B. ENZI, Wyoming (ex         JAMES M. JEFFORDS (I), Vermont
    officio)                         EDWARD M. KENNEDY, Massachusetts 
                                         (ex officio)

                       Glee Smith, Staff Director
                William Kamela, Minority Staff Director



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                      WEDNESDAY, FEBRUARY 15, 2006

                                                                   Page

Isakson, Hon. Johnny, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     2
Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, prepared statement........................     3
Campman, Bob, president, Grace Industries; Pat Droppleman, 
  president, Ocenco Corporation; Dr. R. Larry Grayson, chair, 
  Department of Mining and Nuclear Engineering, University of 
  Missouri-Rolla; Wes Kenneweg, president, Draeger Industries; 
  Dr. Roy Nutter, Professor, College of Engineering and Mineral 
  Resources, West Virginia University; Dennis O'Dell, 
  Administrator, Health and Safety Programs, UMWA; Sam Shearer, 
  president, CSE Corporation; Dr. Starnes Walker, technical 
  director, Office of Naval Research, U.S. Navy; and Gary Zamel, 
  president, Mine Site Technologies PTY. LTD.....................     3
    Prepared statements of:
        Mr. Droppleman...........................................     7
        Mr. Nutter...............................................    15
        Mr. Shearer..............................................    20

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letter from Sago Miners to the Dominion Post.................    45
    3M White Paper...............................................    46
    InnerSpace Systems Corporation...............................    47
    Response to questions of the subcommittee by Wes Kenneweg, 
      Draeger Safety, Inc........................................    49

 
         ROUNDTABLE ON COMMUNICATION AND MINE SAFETY TECHNOLOGY

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                                       U.S. Senate,
Subcommittee on Employment and Workplace Safety, Committee 
                 on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Johnny 
Isakson, chairman of the subcommittee, presiding.
    Present: Senators Isakson, Murray, Kennedy, and Clinton.

                  Opening Statement of Senator Isakson

    Senator Isakson. Good morning. I would like to welcome 
everybody to this subcommittee hearing, and for the benefit of 
everyone that is here, let me tell you what the ground rules 
are. This is not a situation where members of the Senate are 
coming to make speeches. I talked to the other members who will 
be coming, and when Senator Murray arrives--she is my ranking 
member--she will make a brief statement, and I am going to make 
a brief statement, but beyond that, this is about learning 
about the technologies that exist, the ones we hope will exist, 
and mechanisms to get to the existence of those technologies to 
make mine safety in the United States of America even better.
    The reason we asked the Senators not to make opening 
statements is so we could get the information from this very, 
very distinguished panel. What set the stage for this hearing 
was a trip that Senator Kennedy, who is arriving now, myself, 
Senator Rockefeller and Senator Enzi took about a month ago to 
the Sago mine following the tragedy that took place in early 
January.
    In going on that fact-finding trip, which included an 
extensive 2-hour visit with the families, we learned there were 
critical areas of need to improve mine safety, technologies 
that were maybe emerging but did not necessarily exist. I felt 
compelled as chairman of this subcommittee to create a forum 
where we could be prospective in the future about what we can 
do to make mining more safe rather than retrospective in trying 
to find blame for an incident that has happened and is being 
investigated.
    I will reduce my remarks to one simple thing. This is a 
picture of Junior Hammer. Junior--this was taken on the day 
after Christmas of last year--I sat next to his daughter when 
we met with the families in West Virginia. As I was getting up 
to leave, she slipped this picture into my hand and she said 
whatever you do, try and make sure no other young lady loses 
their daddy the way I lost mine. And I think for all of us that 
this meeting is about Junior Hammer and the other individuals 
who have lost their lives in mining accidents.
    Last point, at the Sago incident, in particular, because 
that is where we visited, it was quite clear that technology 
for two-way communication or better communication from the 
surface to the mine could possibly have saved lives. It was 
also important to understand that accessibility to more than 1 
hour's oxygen in one method or another could also have saved 
lives from the standpoint of the miners trapped being able to 
get out, more so than the miners on the outside and rescue 
teams being able to get in.
    So we are here today to hear from each of you, and Senator 
Kennedy, thank you for coming. We are waiving opening 
statements to get right to the information.
    Here comes my ranking member now. Her timing is always 
impeccable. Ladies always know how to make an entrance.
    Senator Murray. That is right.
    [Laughter.]
    Senator Isakson. I have said my 3 minutes and yours are 
allocated, and it is a pleasure for me to introduce my ranking 
member, Patty Murray, for her statement.

                  Opening Statement of Senator Murray

    Senator Murray. Mr. Chairman, thank you so much for 
organizing this roundtable to help us look at all the ways that 
we can help protect America's miners. There is a lot of really 
impressive technology that we could be using to help make 
mining safer, and I really look forward to working with our 
chairman today to explore some of those ideas.
    Families in West Virginia have really endured tragedies 
that very few of us can weigh. We cannot undo what happened and 
we cannot know what they are going through, but we can resolve 
to work together to give our miners better protection, and this 
is why we are all here today.
    Mr. Chairman, I do want to say I really appreciate the 
bipartisan way that you and your staff have worked to put 
together this forum today and I always appreciate your 
inclusive leadership here on this subcommittee, and I want you 
to know I look forward to working with you to review and update 
some of the mine safety laws and regulations that are on the 
books.
    The tragedies in West Virginia have really focused our 
Government's attention on the thousands of brave men who enter 
our coal mines everyday to produce the energy that our Nation 
relies on. We have to do more to make sure that if there is an 
incident, they have access to oxygen and that they can 
communicate with others and come out alive.
    These tragedies have brought out the best in our fellow 
Americans who are interested in looking for ways to reduce or 
prevent the loss of life in the mines. Over the last month, my 
office has been contacted by numerous engineers, scientists, 
and health and safety professionals with a lot of new ideas and 
advances in mine safety technology. I look forward to hearing 
from our experts on our roundtable this morning and seeing some 
of the new products and technologies that are going to be 
demonstrated.
    We are also working on legislation. Our colleagues from 
West Virginia have already introduced legislation to bring new 
mine safety technologies into the industry, and I know that 
Senator Rockefeller has developed legislation to provide tax 
incentives for coal mine operators to invest in some of the new 
safety measures.
    Mr. Chairman, I hope that as we move forward, we will not 
allow the perfect to be the enemy of the good. We know that 
every technology has limits and nothing is foolproof, but if 
there are steps we can take to make progress, I do not think we 
should hold back.
    So we have an important mission and I again want to thank 
our chairman and Senator Kennedy who is here as well and all of 
our witnesses who have come to share with us new ways to help 
make and keep our miners safe.
    Thank you very much.
    Senator Isakson. Thank you, Senator Murray.
    At this time I would like to submit a statement for the 
record from Senator Enzi, Chairman of the Committee on Health, 
Education, Labor, and Pensions.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you, Senator Isakson. Let me begin by noting how much 
I appreciate your leadership and work in organizing this 
roundtable on mine safety technology.
    A few short weeks ago, Senator Isakson and I, along with 
Senators Kennedy and Rockefeller, traveled to West Virginia to 
meet with the families of the miners who perished at the Sago 
mine. It was, for all of us, an emotional experience; and, one 
which reinforced our commitment to do all that we can to ensure 
the health and safety of miners everywhere.
    Coming from Wyoming, I have had a long-standing interest 
and concern for all those who earn their living in the mines. 
Wyoming is rich in the earth's natural resources. It is, for 
example, the largest coal producer in the Nation, shipping some 
1 million tons of coal a day. Because mining is so central to 
our way of life, all of us in Wyoming share a bond with miners 
everywhere, including those who lost their lives in West 
Virginia.
    Today's roundtable is one more step in translating our 
concern into action. While the investigation of the recent mine 
tragedies in West Virginia are not yet complete; and, while it 
is therefore not appropriate to engage in speculation, these 
tragedies have already made amply clear certain areas that 
demand our immediate attention. Of all these areas perhaps none 
is more important than the role of technology in making our 
mines safer.
    One of the most disappointing things I have learned as I 
have taken a closer look at the underground coal mining 
industry is what the current technology cannot do. There are no 
devices to allow wireless two-way phone communications in an 
underground mine. Nor are there devices that would allow two-
way text messaging; so that miners could let the surface know 
what happened, and where they are, and so they could receive 
directions to enhance their chances of survival. The current 
portable oxygen devices do not contain enough oxygen to sustain 
miners for long periods of time. Even the rescue team members 
oxygen supply is less than it should be. I understand the 
enormous difficulties of making technology work under hundreds 
of feet of rock. However, like many of my colleagues, I am 
baffled by the fact that the tremendous technological advances 
of recent years have apparently not been more significantly 
translated into new mine technology.
    As the witness list for today's roundtable indicates, some 
of the technology innovations of recent years have come from 
Australia, another nation with a thriving mining industry. 
Companies there have developed methods to send text messages 
deep underground using extremely low frequencies, to track what 
underground areas miners have been in from the surface, and 
have created mine refuge systems capable of sustaining life for 
up to 36 hours.
    While some U.S. mines are already using these or similar 
products, since this year's tragic spike in fatal accidents, 
mine companies across the country are looking at new 
technologies and determining what would work best in their 
mines. In fact, it is my understanding that the Australian 
company here today, Mine Site Technology, was founded in 
response to a mine accident in Queensland that killed 12 miners 
in 1986. It is impossible to ignore the sad irony that fatal 
accidents spur new developments. This is something I hope to 
address as the HELP Committee considers its legislative 
response to these issues.
    Like the families of the victims we met with at Sago, I 
want to know why. I want to know why technology has not 
advanced farther than the current level; why the best 
technology available is not more widely utilized; if MSHA is 
doing enough to quickly review and promote new technologies; 
and how the millions of taxpayers' dollars which have been 
invested in research to protect miners safety and health have 
been spent. Getting the answers to these questions is critical 
to our shared goal of improving miner safety through 
technology.
    But we must also be careful not to cast out false hope. In 
the period since the Sago tragedy, much has been said about the 
mine technologies which were not in use there. Not all of it 
has been accurate. Even more dangerous, legislative proposals 
have been offered, and some even adopted, which mandate the use 
of technology which simply does not exist. We all wish that it 
did exist, and I believe it will some day soon. Yet, a mandate 
which is impossible to fulfill is no help at all to those who 
go into the mines everyday.
    As Congress and the Administration act to correct the 
deficits exposed by this year's mining tragedies, we must keep 
two tracks in mind. First, we must look to the future and 
encourage the development of better mine technologies. Second, 
we must be realistic about presently existing technologies. 
Overstating something's capabilities does not make it so, it 
just offers false hope. Mandating costly technologies that have 
no chance of saving lives in another mining accident will not 
save lives, it will merely eliminate jobs by driving some mines 
out of business.
    The 19 miners who have lost their lives this year, and 
their families, deserve more than false hope. I look forward to 
working with my fellow HELP Committee members and the Senators 
from West Virginia to find real ways to develop and encourage 
utilization of new technologies which will make our mines 
safer.
    Senator Isakson. Here we will proceed as follows. In just a 
second, Mr. Campman, I will recognize you first to introduce 
yourself.
    We would like for you to take about 3 minutes to introduce 
yourselves and say any statement that you would like to as far 
as your interest in this to kick off the meeting, after which 
time we intend to have a dialogue of exchange between the 
members and yourselves or yourselves together talking 
prospectively about what we can do to make mining more safe 
given your area of expertise or the products you might have or 
have developed.
    So with that said, we will start with Mr. Campman.

  STATEMENTS OF BOB CAMPMAN, PRESIDENT, GRACE INDUSTRIES; PAT 
    DROPPLEMAN, PRESIDENT, OCENCO CORPORATION; DR. R. LARRY 
 GRAYSON, CHAIR, DEPARTMENT OF MINING AND NUCLEAR ENGINEERING, 
UNIVERSITY OF MISSOURI-ROLLA; WES KENNEWEG, PRESIDENT, DRAEGER 
 INDUSTRIES; DR. ROY NUTTER, PROFESSOR, COLLEGE OF ENGINEERING 
AND MINERAL RESOURCES, WEST VIRGINIA UNIVERSITY; DENNIS O'DELL, 
 ADMINISTRATOR, HEALTH AND SAFETY PROGRAMS, UMWA; SAM SHEARER, 
   PRESIDENT, CSE CORPORATION; DR. STARNES WALKER, TECHNICAL 
DIRECTOR, OFFICE OF NAVAL RESEARCH, U.S. NAVY; AND GARY ZAMEL, 
           PRESIDENT, MINE SITE TECHNOLOGIES PTY. LTD

    Mr. Campman. Thank you, Senator. It is a both a pleasure 
and privilege to be here and I think that we are going to show 
you some technologies here that really will help mine safety. 
My name is Bob Campman. I am the Vice President of Research and 
Development for Grace Industries Incorporated. We are a company 
who has designed and developed many personal life safety 
products, particularly catered to the firefighter service, 
however, the product has direct application to mine safety.
    Our company has been in business over 30 years producing 
these types of products and our specialty is bringing the 
forefront of technology into product form to improve life 
safety. Some of the products that we have brought with us, 
which I will elaborate on later on in our meeting here, 
certainly will improve miner safety and also I think workplace 
safety in general.
    So with that said, Grace Industries, again, being in 
business for 30 years, producing these types of products, 
recently after our 9/11 disaster, our company was contacted by 
the New York City command staff to come up with an evacuate 
system for firefighters. As we know, over 100 firefighters lost 
their lives in the collapse of the second tower.
    The incident commanders came to Grace and wanted a stand-
alone evacuate system for firefighters. After a couple of years 
of development, about 4 years ago, we delivered on our promise, 
and developed what we call our T-PASS 3 system. And what this 
is is a high performance radio signaling system used by 
firefighters as a panic button alarm, as a motion sensing man-
down alarm. By the way, PASS is an acronym for Personal Alert 
Safety System. And of course to send an evacuate signal to 
these firefighters in the event of an emergency.
    Our company, since we have introduced the T-PASS 3, has 
sold this to over 350 departments so far nationwide in the past 
3 years. The product has direct application to mine safety. 
Recently we have begun some testing in working with NIOSH and 
MSHA on a very initial preliminary basis here the past couple 
of weeks to set up some testing for our product in mine use.
    Some of the strengths our company has and our products have 
are they are intrinsically safe which means they can be brought 
into a methane environment, which is very common in a coal 
mine.
    Other products that we have include locating technology, 
which we are currently developing, that could also be used to 
track and locate miners within a mine. Later on in the meeting, 
I would like to elaborate and show you some of the technology 
demonstrated for you and perhaps indicate how I think our 
system can improve mine safety.
    Thank you.
    Senator Isakson. Thank you, and I commend you as a witness. 
The red light went off and you were finished. Can you see the 
red light?
    Mr. Campman. Yes.
    Senator Isakson. That is what the red light means. Some of 
us do not pay much attention to that, but we are delighted when 
you do.
    Mr. Droppleman.
    Mr. Droppleman. Thank you. Thank you, Senator, for inviting 
me and for including our company in this important discussion. 
I have prepared a written statement and have submitted it for 
inclusion.
    My name is Pat Droppleman. I am President of Ocenco 
Incorporated. Our company is headquartered in Pleasant Prairie, 
Wisconsin. I happen to be a native of West Virginia from 
Doddridge County, West Virginia, and I grew up near Farmington 
where the Farmington mine disaster took place in the 1960s, and 
I have monitored and watched and been involved in the mining 
industry since 1970.
    Our company operates from 12 locations in ten countries on 
four continents and we are involved in mine safety in most of 
those locations. We build compressed oxygen breathing apparatus 
for firefighters, for military applications. We build bailout 
units for fighter aircraft. Every F16 pilot has an escape 
breathing apparatus that we manufacture. We make very 
sophisticated rebreathers for mine clearance work for the Navy. 
We can take a diver to 91 meters, keep him underwater for 5 
hours, and do that totally stealth and totally silent.
    In all of the applications from our medical company to our 
firefighting to the mine escape breathing apparatus to 
shipboard escape apparatus, we have chosen to use compressed 
oxygen technology because we believe that it offers the 
greatest opportunity and the greatest flexibility in terms of 
performance and reliability.
    During the discussions, I am sure you are going to hear a 
lot of discussion about chemical oxygen generators versus 
compressed oxygen generators. I do not think that is the issue 
here. I think the issue here is, there are two basic 
fundamental problems.
    The first problem is that the current regulations do not 
recognize the difference in performance between approved 60-
minute self-regulators. It is absolutely fundamental to 
escape----
    Senator Kennedy. Could you say that again? I did not hear 
it.
    Mr. Droppleman. I said the current regulations do not 
recognize the fundamental differences between approved 60-
minute self-rescuers, and that is critical to understanding and 
developing an escape strategy in the event of a fire and 
explosion, and I will come back and address that.
    The second fundamental problem is that the regulations do 
not speak to protecting the miner from where he is in the mine 
to a place of safety, preferably to the outside. Those of us 
that have spent our career in mining know in the event of a 
fire and explosion, we have one objective: if we survive the 
initial incident, we want to be outside. And that will always 
be the number one objective of a miner.
    The regulations should recognize that and should support 
efforts on the part of mines to protect the worker from where 
he is in the mine to the outside. That is not possible with one 
belt-worn 60-minute self-rescuer.
    Those two issues, if we address those two issues in terms 
of self-contained self-rescuers, then we will take a huge step 
toward protecting miners.
    Thank you.
    Senator Isakson. Thank you very much.
    [The prepared statement of Mr. Droppleman follows:]
                 Prepared Statement of J. P. Droppleman
    Ocenco, Incorporated is pleased to have the opportunity to 
participate in this important discussion about coal mine safety and the 
use and deployment of Self-Contained Self-Rescuers (SCSRs) in 
underground mines.
    Ocenco manufactures SCSRs, or EEBDs (Emergency Escape Breathing 
Apparatus), for military, marine, industrial, aviation and mining 
applications. In addition, we manufacture sophisticated rebreathers for 
military mine clearance work and Self-Contained Breathing Apparatus 
(SCBA) for professional firefighters. Ocenco's Erie Medical Division 
manufactures a wide variety of oxygen valves and regulators for medical 
oxygen therapy applications. Ocenco's Interspiro Division has been the 
leader in CBRN (Chemical, Biological, Radiological and Nuclear) 
hardened SCBAs for the first responder market, and our ABMS-3 
(Automated Breathing Metabolic Simulator) is used by NIOSH, Aberdeen 
Proving Ground and the U.S. Navy for both breathing apparatus approval 
and research.

Mine Worker Safety Objectives

    Our Nation's goals for mine workers, as they relate to respiratory 
protection during escape from fires and or explosions, must be to get 
all underground workers to a place of safety--preferably the outside.

Technology of SCSRs

    There are two basic technologies currently being used to provide 
oxygen to miners for escape from fires and or explosions: (1) 
compressed oxygen and (2) chemical oxygen generators.
    In all applications--mine escape, underwater mine clearance, 
fighter aircraft bail out systems, firefighting apparatus and medical 
oxygen therapy--Ocenco has chosen to use compressed oxygen technology 
because it offers the greatest flexibility and reliability in terms of 
design and performance.
    Ocenco does not recommend that Congress or MSHA select only one of 
these technologies for use in underground mines. In fact, we believe it 
is essential to allow mines to choose among competing technologies, not 
only those available on the market today but those that may be 
developed. However, it is essential that any system be evaluated based 
on performance under realistic conditions.

Successful Escape Factors

    There are four requirements that must be met to effect a successful 
self rescue from a mine fire or explosion.
    1. Accessibility--the miner must have access to an oxygen supply 
device.
    2. Training--the miner must know how to use the device.
    3. Performance--the device must work.
    4. Duration--the devices must provide enough oxygen to get the 
miner to a place of safety--preferably the outside.
    It is essential that policymakers and the public understand that 
the performance of breathing devices varies dramatically. There is a 
tendency to assume that the usefulness of a device can be measured 
simply based on the rated duration of the oxygen supply. For example, 
one might assume that a 1-hour breathing device mounted on the miner's 
belt is better for the miner than a 10-minute device on the belt. That 
is not true. The issue is what is available to the miner when disaster 
occurs--not simply the device on his belt, but the reliability of the 
device and the proximity and performance of breathing devices stored 
nearby. In making this determination, policymakers must be realistic 
about what miners do every day. Large and heavy devices interfere with 
the ability to work and encourage the miner to remove the bulky device 
from his belt. In addition, large devices are subject to damage from 
shock and impact when worn on the belt.

Current Regulations

    The current regulations for approved SCSRs are found in 30 CFR  
75.1714 through 75.1714-3. Today, MSHA regulations give mines three 
choices to protect miners from loss of oxygen. For each miner and 
authorized visitor, the mine can choose to provide any of the 
following:

    1. A 1-hour SCSR, which is carried by the miner. Once this device 
is provided, the mine needs to provide no additional protection.  
75.1714-1(a). Ordinarily, the miner should wear the device, but under 
some circumstances the device can be kept nearby.  75.1714-2(b)-(e).
    2. A SCSR of not less than 10 minutes and a 1-hour canister stored 
nearby.  75.1714-1(b). The 10-minute device is ordinarily carried by 
the miner. The 1-hour canister must be available at all times to all 
persons when underground in accordance with a storage plan submitted by 
the operator of the mine and approved by the District Manager.  
75.1714-2(g)(2).
    3. Any other self-contained breathing apparatus which provides 
protection for a period of 1 hour or longer and which is approved for 
use by MSHA as a self rescue device when used and maintained as 
prescribed by MSHA.  75.1714-1(c). No additional protection has to be 
offered.

Weaknesses in the Current Regulations

    There are two fundamental problems with the current regulations:
    1. The current regulations do not recognize the significant 
performance differences among approved 60-minute SCSRs.
    The regulations have been implemented based on the assumption that 
a 60-minute breathing device will necessarily and completely protect 
the miner. That is not true. The regulations, regardless of the device 
used, should focus on performance and the benefits for the miner, not 
arbitrary breathing times. It is impossible to determine performance 
without testing under realistic conditions.
    Example: One 60-minute approved SCSR supplies 157 liters of oxygen 
while another 60-minute approved SCSR supplies 82 liters. Clearly, 
there is a significant difference in performance for these two SCSRs. 
The 157 liter compressed oxygen device will last over 7 hours if a 
miner remains at rest. A 60-minute SCSR using a different technology 
lasts a much shorter period.
    2. The current regulations do not require each mine to have an 
approved plan that ensures the miner will have enough oxygen to reach a 
place of safety--preferably the outside.
    Every mine should be required to submit a plan for protecting the 
miner from loss of breathable air--regardless of the type of SCSR used. 
MSHA should review and approve each plan to ensure that the miner is 
protected. This is not the case now.
    The bottom line is that miners must have an approved plan and 
equipment that allows them to survive a disaster. The regulations 
should not force a ``one size fits all'' solution.

Ocenco's Recommendations

    Ocenco recommends the following:
    <bullet> Neither Congress nor MSHA should mandate that a particular 
SCSR technology be used.
    <bullet> The regulations should require all mines to submit a 
storage and escape plan that gets the miner to the surface. This 
requirement should apply regardless of the duration or technology of 
SCSR used.
    <bullet> The storage and escape plan should be verified using in-
mine escape trials with mine personnel. The test should be designed to 
demonstrate that SCSRs will perform under real-life underground mining 
conditions and get the miner to the surface.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Isakson. Dr. Grayson.
    Mr. Grayson. Yes, sir. I will read mine into the record. 
Dear Honorable Committee Members: I would like to dispense with 
other than a very brief introduction of myself and just suffice 
it to say that I was a coal miner, production foreman, and also 
a superintendent of about a 500 person underground mine, and I 
deeply cared for the miners under my charge.
    I am still very close to my friends in my former UMWA crew, 
and it was that admiration and respect for good people that led 
me to mine safety as an area of research emphasis in my career. 
I hope that all of us involved in reshaping the mine safety 
provisions this year will focus intently on increasing 
significantly the odds of survival for all underground miners 
in times of emergencies.
    Emergency situations actually vary widely by location in a 
mine relative to where the workers actually are, the extent of 
the damage wrought from very local to very large spatially, and 
then finally in their probability of trapping the miners from 
escape.
    Thus, a combination of information age technologies, rescue 
and response procedures, and technology and preparedness 
training are demanded in order to reach a new level of 
protection for our underground coal miners.
    I have come to know that technology, no technology can 
actually work perfectly all the time as you had stated. Even 
the very good ones have blips from time to time. Every 
technology does have flaws. It is developed during a bad 
manufacturing run or possibly evolving over time, and 
vulnerabilities to certain conditions, especially fires and 
explosions.
    Thus, as we seek new safety implementations, I believe it 
is important that we examine in detail the various emergency 
situations or scenarios that have occurred, discern where and 
how the miners became vulnerable, and then couple these 
scenarios up with the technologies that can best increase 
significantly the odds of miner survival in these specific 
situations, and admittedly there will be no single answer. It 
is going to be a combination.
    During today's proceedings, I will do my best to respond to 
your questions and blend optimism for specific technologies 
with reality concerning steps needed to ensure that the 
technologies will deliver on what will ultimately become, I 
believe, an implied guarantee to our underground miners that 
they will not have to worry so much anymore when we are done 
about emergency situations.
    Recognizing the role of technology and how it must play to 
advance mine safety, the National Mining Association announced 
the formation of an independent Mine Safety Technology and 
Training Commission. I have agreed to chair the commission. The 
commission will have a balanced membership that will bring a 
full range of perspectives to address these issues.
    Yesterday, it was announced that eight of the nine members 
have already been confirmed and soon will complement the group 
with the additional communications technology person. My goal 
is to report the commission's preliminary findings by early 
July and have a final report by the end of September. I assure 
you that the commission will be keeping its independent 
information-gathering deliberations and recommendations focused 
on what you are focusing on today.
    Thank you.
    Senator Isakson. Thank you very much.
    Mr. Kenneweg.
    Mr. Kenneweg. Yes, thank you for inviting Draeger to this 
important----
    Senator Isakson. Make sure the microphone is close to you.
    Mr. Kenneweg. Again, thank you for the invitation to be 
part of this discussion. My name is Wes Kenneweg. I am the 
President and CEO of Draeger North America. Draeger is a 
worldwide company that primarily manufactures or develops and 
manufacturers respiratory protection equipment and gas 
detection equipment.
    This includes mine rescue breathing apparatus, oxygen self-
rescuers, refuge stations, gas detection equipment for 
combustible gases such as methane, carbon monoxide, toxic gases 
and oxygen deficiency.
    The company is 117 years old. North America's base is in 
Pittsburgh. We have been there since 1907. Primarily we are 
based in Pittsburgh because of the concentration of mining in 
that area so it has been a big part of the Draeger philosophy 
to provide products and use our engineering and technology for 
mining.
    And I have worked with Draeger for 23 years, partly in the 
U.S., in Canada, and also in Australia, and all those locations 
I was involved in mining and regarding mine rescue. What we 
have to offer, and we can discuss in more detail later, is our 
expertise in self-rescuers.
    These are some self-rescuers here, two oxygen and an older 
filter device, which is also still in use in the mines. There 
are some things I think with the approvals, the test standards, 
the testing equipment, the regulations that require certain 
duration time limit on the oxygen rescuers underground. Those 
need to be possibly more flexible and that would give the 
manufacturers an opportunity to make better use of their 
technologies.
    Thank you.
    Senator Isakson. Thank you very much.
    Dr. Nutter.
    Mr. Nutter. Good morning. My name is Roy Nutter. I am a 
professor of computer science and electrical engineering at 
West Virginia University. I have done research in underground 
communications and applying computers and automation in 
underground mines, coal mines, since about 1969, I guess.
    A few things I would like to say as we begin. One of the 
things that I hear happening when we start talking about 
communications, and I am going to put my education hat on here 
if it is all right, is I draw the line at incident, at the 
explosion. Pre-incident, pre-explosion, people are coming out 
of the woodwork to communicate pre-incident. There are many 
companies selling radios, leaky feeder cables, underground 
telephones, all kinds of equipment, and some of the mines, many 
of the mines have these installed.
    At incident or at explosion, though, I describe it as 
looking down the barrel of a shotgun. The thing goes off and 
all the infrastructure, all the cable, all the wires, 
everything that is under there is gone, destroyed, shot out of 
the end of that gun.
    Now is when we need to communicate, postincident. Before is 
an issue, but postincident is more important. What we are 
hearing is, and I will talk about PED for a minute, is 
essentially a pager from above ground to underground. That is 
fine, and that is certainly a first step. We do need to 
communicate, though, from underground to above ground as well 
postincident.
    One of the problems, and you will probably hear this later, 
one of the problems with these type systems is noise affects 
them. Mining equipment noise, powerline noise, atmospherics 
affects it, so they are not always reliable in all places. 
Unfortunately or maybe fortunately, after the explosion, power 
is off. A lot of that noise goes away. So bi-directional 
communications is probably much more doable postexplosion with 
power off.
    And I think with that, I will stop. Thank you.
    [The prepared statement of Roy Nutter follows:]
                    Prepared Statement of Roy Nutter
    I am Roy Nutter. I am a Professor of Computer Science and 
Electrical Engineering at West Virginia University. I hold a BS, MS, 
and Ph.D. in Electrical Engineering from West Virginia University. 
After completing my Ph.D. in 1971, I spent 2 years with NCR developing 
microprocessor based equipment for the banking industry, I returned to 
WVU to teach electrical and computer engineering where I have remained 
in various capacities since 1974. While a graduate student, I worked 
under Dr. M. Dayne Aldridge on research in underground communications. 
Following my return to WVU in 1974, I concentrated on applying 
computers and communications to underground coal mining. I was named a 
Fellow of the IEEE in 1993 this work in mining. I have published many 
papers and hold several patents in areas of communications and computer 
controls.

Background

    Before answering your questions about underground communications, 
let me set the stage for understanding better the communications 
situation in underground coal mines. Consider dividing the problem into 
``PRE'' incident and ``POST'' incident.
    The pre-incident situation is the normal everyday coal mine that is 
in production. The normal methods of communications work and work 
fairly well. These include wired standard telephones, mine pager 
phones, trolley phones, and leaky feeder radios fed by an 
infrastructure of repeaters and cabling.
    Once an incident becomes an explosion, it is like looking into the 
barrel of a shotgun. Once it goes off, ALL infrastructure that is in 
the mine entry is blown out and destroyed. Little survives the 
explosion in the immediate vicinity. If the gas explosion stirs up 
enough coal dust, a coal dust explosion then goes off as well further 
clearing out any items that remained in the entryways. Entries far away 
from the explosion area may or may not be affected.
    Postincident then is the postexplosion, immediate postdisaster coal 
mine. Telephone lines and communications infrastructure are simply 
gone; trolley lines and track can be blown out; overburden may have 
collapsed into the entryways and escape-ways; and the explosion can be 
so strong as to blow a wooden 2x4 lengthwise through a steel I beam. 
Electrical power is now generally off all over the mine since power 
cables are down.
    Ventilation may or may not exist depending upon whether stoppings 
have blown out or overcasts have collapsed. In other words, it is a 
disaster.

Now the Job Is To Communicate

    Now let me try to address the issues your questions are raising:
    Let me first address communications in general. Communications is 
needed in BOTH directions not just from the surface to underground.
    There are, at this time and to my knowledge, exactly no commercial 
products that can communicate both directions after the explosion.
    Let me first address the PED equipment. From the information I 
have, PED, presently the most talked about equipment, is only a paging 
device. It can only page from the surface to the devices underground. 
The devices underground can not communicate to the surface with this 
equipment.
    Interestingly, PED appears to be somewhat unreliable during normal 
mine operation. This in itself is not surprising because of the 
frequencies used by such devices. Modern underground mining equipment 
using variable frequency drives, generate these very same frequencies 
in normal operation. This then understandably interferes with the 
paging equipment. In warmer weather, atmospheric noise can also 
interfere. In fact, there have been some complaints from present users 
that the PED devices create interference themselves to already 
installed mine telephones and trolley phones.
    On the other hand during a postdisaster situation, powered 
equipment will normally be turned off or de-energized. This stops some 
of the interference and should improve the possibility of paging an 
individual device underground. This it does NOT guarantee that the 
paging system will work in all applications. Ground conductivity, 
placement of antenna equipment both above and below ground as well as 
nearby steel structures and equipment can greatly affect the ability of 
this equipment to communicate.
    Can PED be useful to trapped miners and rescuers? Yes. The 
important thing is that the underground miners be given enough 
information to be able to escape the mine on their own. This will 
require that the outside transmitter personnel have good and valid 
information about the conditions in the mine postincident. This is 
certainly not the normal situation.
    Apparently at the Sago mine the crew from section 2 had knowledge 
about the location of fresh air in the escape-way after a certain point 
in the mine because they had just escaped. They were in effect the 
scouts for information. If this information could have been 
communicated reliably to the miners in-by at section 1, those miners 
may not have decided to barricade themselves and wait.
    If a mine has an installed mine-wide ventilation monitoring system 
that is measuring ventilation flows, differential pressures, and gas 
concentrations in the ventilation system, it is likely that good 
information can be provided to those miners still underground via their 
individual PEDs. It is very unlikely that a mine will quickly send a 
real person into harm's way to ``scout'' the ventilation system and the 
mine. That is the job of the rescue team and takes several hours of 
precious time to get started. Information about the ventilation system, 
gas concentrations, and what parts of the ventilation system are 
working is an immediate need postexplosion.
    Is bi-directional communications possible? Yes, but, the next 
question you should ask is whether such equipment can be built that can 
provide bi-directional communications between the surface and 
underground. The answer is yes with qualification. At reasonable depths 
of a few hundred feet, communications by voice and data is very 
possible and in fact has been in use by cavers for at least 20 years.
    This equipment is designed and built for the most part by radio 
amateurs for use by cavers. This equipment is usable but not presently 
permissible by MSHA standards, of course, and is not available in 
commercial quantities at all. For example there may exist less than 100 
radios in total, constructed during the last 20 years by these ham 
radio operators. Could more be built? Yes of course. Can it be done in 
1 year or less? Doubtful. This equipment is presently of briefcase size 
with antennas that are not easily carried (one meter diameter loop.) It 
may be possible to place such equipment in the safety barrel with the 
self contained self rescuer breathing equipment for use only 
postincident.
    Can commercial communications equipment be built for individual 
coal miners and sold to the mining industry? Yes. In fact, in the 
longer term, this will probably have the best impact. One problem is 
however that most radio manufacturers are not willing to develop and 
build such equipment for such a small market as mining.
    I am aware of only one company that has begun to develop such 
equipment. That is Kutta Consulting in Phoenix, AZ. Kutta has been 
developing, under an SBIR for the Department of the Army, a radio 
technique used by cavers and tested in caves. They have expanded that 
technology and have now applied for patents on new developments. An 
SBIR means that development is fairly slow and not well funded. 
Typically such work involves only a very meager effort by a person 
during the development. Again the market is relatively small for such 
equipment for coal mining. Kutta believes that they can also market to 
emergency responders for communications in areas of collapsed buildings 
and to DOD for the military's use in caves.
    In my opinion, the immediate best hope for postincident 
communications for the next year or even two is to go ahead with 
equipment such as PED while keeping in mind that this equipment is not 
ideal and may become outdated quickly. The MSHA Web site notes that the 
company will require 6 to 9 months to produce enough equipment for 50 
mines. [http://www.msha.gov/Techsupp/PEDLocatingDevices.asp] This means 
that once more modern two way communications gear can be developed and 
tested, that the PED pagers may need to be replaced with more modern 
bi-directional communications gear.
    Another question that you should consider is how to codify a 
requirement for such communications devices such as PED or others. 
Requiring a specific manufacturer's product that is only doing half the 
job (only communicating one way) may be a reasonable quick solution, 
BUT, one should ask what will happen when better equipment becomes 
available. Will a coal mine operator simply say, ``I already conform to 
the requirement'' and wave a PED device at the inspector? If it is 
chosen to write rules, then it is my opinion that the rules must be 
broad enough to allow multiple solutions from multiple manufacturers 
and not put our miners in a bind in a year or so when better actual two 
way communications equipment becomes available.
    Now, let me address tracking of miners. The tracker equipment that 
is being proposed depends upon a large infrastructure of underground 
equipment and cable or fiber and wire. Since the chance of this 
underground equipment surviving an explosion is very small, the only 
information that will be available will be that collected before the 
incident and any that might still be powered and communicating out-by 
the destroyed area.
    The use of through the earth radio gear that can be utilized in 
both directions can be used for tracking as well as communications 
instead of requiring underground infrastructure to be installed to do 
so. The cavers have used this ability for many years to map caves from 
above ground. They can locate a caver rather accurately in three 
dimensions and tie that to surface GPS coordinates. This presently 
requires real people active with receivers above ground who have an 
initial idea of the general location of the person underground. This 
past weekend, cavers were mapping a cave near Riverton, WV with people 
outside in the snowstorm locating the in ground cavers using such 
equipment. They were tracking XY to within 1 foot with a depth of 300. 
Is this equipment commercially available? No, as stated above, these 
are essentially radio amateurs building their own equipment.
    Can this equipment be commercialized? Of course. Such equipment 
will need to be developed for commercial use, approved by MSHA, and 
produced. All of the problems sited above for getting communications 
equipment into the coal mines exist with this equipment as well.

So What Action Should Be Taken by Congress?

    1. Financial support should be provided to speed up the 
developments being proposed by Kutta Consulting, West Virginia 
University, and other entities. I would suggest that support be 
provided to underwrite the expense of producing at least the first wave 
of equipment into the coal mines. I doubt that otherwise, a 
communications company will choose to develop new equipment, get MSHA 
approval, and produce such a small number of units to support our 
miners.
    Beyond this immediate goal, there are additional longer term high 
technology additions to this base radio equipment that are more 
research and development. These will improve and expand the application 
of these through the earth radio communications systems and make such 
systems easier to use. These include automatic sensors that might 
automatically determine from the surface, the condition of a miner who 
is underground. Automating the tracking of miners and equipment should 
be done using the through the earth technology. Presently this is 
manpower intensive and can only be used during emergencies. Reliable 
and automatic communications equipment for data and voice postdisaster 
must be developed and supported. As time goes on, hybrid equipment can 
be developed that will combine the commercial pre-incident equipment 
with the rescue postincident equipment to create a self healing network 
of equipment to give the coal miner a better chance at survival.
    2. A review and possible modernization of MSHA tech support's 
methodologies of evaluating electronics equipment. Modern electronics 
is extremely low power in general and does not necessarily require the 
same scrutiny and analysis that tube type electronics required for 
permissibility in years long ago.
    3. Rules changes that require that coal mines have a method of 
communications postincident both to and from the miner. This should 
allow options as much as possible. Provisions should allow for 
innovative ways of communicating. If one is going to allow a one way 
pager for example, then one might install a set of geophones 
permanently above ground with computerized readouts at a central 
location that can locate a miner pounding on a rail or rib. One might 
simply install a bore hole with an explosion proof and survivable 
telephone whose cables can not be blown out the bore hole. Allowance 
should be provided for innovative and reasonable solutions to 
communications to and from underground that can survive incident 
conditions.
    Thank you for your time.

    Senator Isakson. Dr. Nutter, thank you.
    Mr. O'Dell.
    Mr. O'Dell. Senator Isakson, Senator Murray and Senator 
Kennedy, I appreciate you putting this forum together today and 
having me a part of this. My name is Dennis O'Dell. I am the 
current Administrator for the United Mine Workers of America. I 
represent their health and safety department.
    I was born and raised in Fairmont, West Virginia, educated 
in Fairmont, West Virginia. Prior to me becoming the 
Administrator, I was a field representative in health and 
safety for 10 years in which I covered a large area of the 
United States, but more importantly than that, the thing that I 
am very proud of is that I actually worked as an underground 
coal miner for 20 years.
    And with that, I sit here before you today and tell you 
that it sickens me to see what we are going through, that it 
takes such a tragic accident such as what happened at Sago and 
Aracoma, and other instances where we have miners being killed 
to get to where we are. It has always been written, and I can 
remember as a young boy when Farmington No. 9 blew up, what 
those families went through because I was 20 minutes from 
Farmington, and I was at the Sago mine and saw what those 
families went through.
    I am happy to see the representatives that are here today. 
It encourages me to see that there are some people out there 
who are willing to push some technology and develop new 
technology for the miners underground. It troubles me, though, 
to look at some of the self-rescuers that you see before you 
today, and when I started in the coal mine in 1977, these are 
the same self-rescuers that I wore. Nothing has changed since 
then.
    So that is something that we definitely need to look at. 
The industry has been stagnant as far as pushing technology for 
new development on safety gear. We have gone a long way on 
production, but we have been stagnant on pushing safety 
improvements. It seems like the industry and the Government has 
been satisfied with status quo because we have had lack of new 
rules to force the technology of new developments.
    Part of the problems are underfunding of NIOSH, 
underfunding of MSHA. They need to have a budget that allocates 
money toward the development of new technologies so that we can 
have better safety protection for our miners today.
    Another problem is there seems to be no communications 
between government agencies that already may have technology 
that exists. NASA, the Pentagon, there may be technologies that 
they have already worked with that can be applied to the mining 
industry today and there needs to be an open communication 
between those agencies and the mining industry.
    But to make all this work, there has to be an attitude, 
there has to be proper funding, there has to be an attitude of 
an industry and a government and the agency that oversees the 
mine health and safety that says these things will work. We 
cannot go into this with an attitude that this will not work. 
We have to take the attitude that these things can work and we 
can push the development of making them perfected.
    A price cannot be put on a human life. I found it very 
troubling today to learn that one of the most important people 
that should be at this table today is a representative from 
NIOSH, and the Government did not allow him to be here today, 
and there is a lot of valuable information that could have been 
put before this team of people today that could have been 
learned upon, and I see I have a red light. So I will be open 
for more discussion later.
    Senator Isakson. Mr. Shearer.
    Mr. Shearer. Good morning, Mr. Chairman, and Senator Murray 
and our Senator Kennedy. As founder of CSE Corporation, I 
appreciate having the opportunity to appear before you today 
and am pleased to be of assistance to this subcommittee as it 
explores emergency safety equipment for miners in underground 
mines.
    CSE has from its inception been intentionally focused on 
this very important aspect of workplace safety. CSE began 
operations in the 1970s. Its major focus has always been to 
provide the most effective and conveniently portable self-
rescuer for miners that would meet the 1-hour minimum duration 
requirements established by law.
    This was in response to a specific mandate of Congress in 
section 317 of the Coal Mine Health and Safety Act of 1969, 
reenacted in the Federal Mine Safety and Health Act of 1977.
    From the outset, the goal was to produce a unit that was 
not merely a filter, like the belt-wearable filter devices in 
use at the time, but rather a unit that would provide a source 
of oxygen independent of whatever gases might be in the mine's 
atmosphere.
    The self-contained self-rescuers used in mines today meet 
that goal by providing a totally self-contained breathing 
circuit that provides the miner with oxygen that is generated 
within the unit itself and is not dependent in any way on the 
composition of the mine's atmosphere.
    For many years, our focus and the focus of others has been 
to make the legally mandated self-rescuer as convenient as 
possible and specifically as conveniently wearable as possible. 
Early units were quite large. We had one. We introduced the AU9 
in the first go-round with the breathing apparatus and that 
unit weighed 11 pounds. It was not wearable. You had to store 
it.
    The presently used SR-100 is a truly portable and belt 
wearable unit. The wearability means that miners have an oxygen 
supply immediately available for an emergency. Another critical 
part of developing self-rescuers has been to make them mine 
durable. They need to stand up to the harsh mine environment 
where they are regularly subject to potential exposure from 
physical trauma, moisture and sometimes significant temperature 
variances.
    This is the unit that the miners are wearing, our unit, and 
I would be glad to take questions later on about that. CSE has 
made great strides in addressing all of these issues critical 
to providing each miner with a completely reliable self-
contained self-rescue device. For some time now, we have been 
working toward developing the next generation of self-rescuers 
for miners.
    Not only do we plan to make our new unit more compact, we 
hope to include a device that will permit oral communication 
without interfering with the clean air supply that the unit 
provides the miners.
    Of course, any unit we produce must meet all of the 
approval and certification criteria and testing of the National 
Institute of Occupational Safety and the Mine Safety and Health 
Administrations.
    As improvements are made, new standards may be needed for 
approval and certification. We're saying we think that has to 
come soon. As with all lifesaving devices, training is 
critical. Frequent training can ensure that all mines are 
completely ready to deploy a unit if ever the need should be.
    I cannot emphasize enough how important this is. CSE has 
been pleased to work with the Government, mine operators, and 
miners on training programs for the current SCSR and we look 
forward to continuing these efforts. We spend a lot of time in 
this area. It is so critical.
    I would like to offer a written copy of my statement for 
the record and will be pleased to answer any questions you may 
have.
    Thank you, sir.
    [Prepared statement of Mr. Shearer follows:]
                   Prepared Statement of Sam Shearer
    Good Morning Mr. Chairman and Senator Murray. As founder of CSE 
Corporation, I appreciate having the opportunity to appear before you 
today and am pleased to be of assistance to this subcommittee as it 
explores emergency safety equipment for miners in underground mines. 
CSE has from its inception been intensely focused on this very 
important aspect of workplace safety.
    CSE began operations in the 1970's. Its major focus has always been 
to provide the most effective and conveniently portable self-rescuer 
for miners that would meet 1 hour minimum duration requirements 
established by law. This was in response to a specific mandate of 
Congress in Section 317(n) of the Coal Mine Health and Safety Act of 
1969, reenacted in the Federal Mine Safety and Health Act of 1977.
                    self-contained source of oxygen
    From the outset, the goal was to produce a unit the miner could 
carry at all times that was not merely a filter (like the belt wearable 
filter devices in use at the time), but rather a unit that would 
provide a source of oxygen independent of whatever gases might be in 
the mine's atmosphere. The self-contained, self-rescuers used in mines 
today meet that goal by providing a totally self-contained breathing 
circuit that provides the miner with oxygen that is generated within 
the unit itself and is not dependent in any way on the composition of 
the mine's atmosphere.
                    lightweight, belt-wearable unit
    For many years, our focus and the focus of others has been to make 
the legally mandated self-rescuer as convenient as possible, and 
specifically as conveniently wearable as possible. Early units were 
quite large in comparison to the reduced size units we are now able to 
provide. The early units could not be worn by miners while they went 
about their daily work underground. Those units had to be stored while 
the miners carried small filter-type breathing units on their belt to 
provide protection until they could reach the stored units. In the 
event of an emergency, the miners would have to locate the cache of 
stored units, take off their filter self-rescuer and don the self-
contained self-rescuer before they could begin their escape from the 
mine.
    The presently used SR-100 is a truly portable unit. It is 
lightweight and is designed to be carried on the miner's belt. 
Thousands of miners carry one everyday in the mines. The wearability of 
this type of self-contained self-rescuer means that miners have an 
oxygen supply immediately available for an emergency. The small size of 
the current SCSR also means that, in addition to the unit worn on the 
miner's belt, more units can easily be stored at strategic locations in 
the mine to provide additional oxygen supply capability, should that be 
needed.
    The portability of the unit also obviously facilitates an easier 
escape of the mine. If the way is clear, miners need to be able to exit 
the mine on their own, in the event of an emergency. If self-rescue is 
possible, this is far better than waiting in the mine for a rescue team 
to arrive. The belt-worn SCSR provides the capability for self-rescue, 
and also provides a reserve of safe air to breath in the event the 
miner cannot exit on his own.
    If needed during self-rescue, additional SCSR units can be picked 
up from storage caches along the escape route and carried until they 
may need to be donned. The portability of self-rescuers makes it easier 
to carry additional units while walking out of the mine. In the event 
the miner has to wait for a rescue team to arrive, a portable supply of 
oxygen, as provided by an SCSR, will enable the miner to travel to a 
safe location to await rescue.
                              mine durable
    In addition to making them as compact as possible, another critical 
aspect of developing self-rescuers has been to make them mine durable. 
They need to stand up to the harsh mine environment where they are 
regularly subject to potential exposure from physical trauma, moisture 
and sometimes significant temperature variances. CSE has made great 
strides in addressing all of these issues critical to providing each 
miner with a completely reliable self-contained self-rescue device. 
Over the years, we have incorporated new component materials to enhance 
the unit's durability and we have added to the units indicators that 
will provide the user with important information about the unit's 
operating condition.
                                training
    As with all life saving devices, training is absolutely critical. 
Frequent training can ensure that every miner is fully ready, without 
hesitation, to deploy a unit if ever the need should arise. Training 
once per year is not enough. Training for miners should be conducted 
frequently on how to don the SCSR, how to shift from their first SCSR 
to their second unit, if necessary, and how to care for and inspect the 
unit. I cannot emphasize enough how important each of these things is. 
CSE provides training materials, including training units, to the mines 
for use in training programs. CSE has been pleased to work with the 
Government, mine operators and miners on training programs for the 
current SCSR and we look forward to continuing those efforts.
                next generation portable breathing unit
    For some time now, we have been working toward developing the next 
generation of self-rescuers for miners. We are working on developing 
units that can provide air supplies of lengths other than the currently 
mandated 1-hour. We also are planning to make our new units more 
compact, and we hope to include a device that will permit oral 
communication without interfering with the clean air supply that a unit 
provides to the miners.
    Of course, any equipment we produce must meet all of the approval 
and certification criteria and testing of the National Institute of 
Occupational Safety and Health and the Mine Safety and Health 
Administration. Since we are looking at new uses of technology for our 
next generation of self-rescuers, we anticipate that new standards will 
be needed for the approval and certification of these devices. We have 
been working with the agencies to keep them informed of our development 
efforts and we are hopeful that the necessary approval and 
certification will be in place for these new types of units.
    I would like to offer a written copy of my statement for the 
record, including the attached information on the SR-100, and will be 
pleased to answer any questions you may have.

    Senator Isakson. Thank you. And all statements submitted 
prior to and afterwards, we will leave the record open, they 
will be included for the record.
    Dr. Walker.
    Mr. Walker. Thank you, sir. I am Dr. Starnes Walker.
    I am the Technical Director and Chief Scientist for the 
Office of Naval Research. As you all know, we were created by 
statute in 1946. Our corporate laboratory, the Naval Research 
Lab, has been in existence since 1921.
    Our mission is to take science and technology, and make it 
real for our sailors and our marines. We operate in extreme 
environments, all the way from the deepest part of the ocean to 
space. In those environments, we have to maintain 
communications; we have to maintain survivability; we have to 
operate and meet the mission. In maturing science and 
technology, we take basic research, move it to applied research 
to advanced technology development.
    We provide that science and technology element to the fleet 
and the force. In the environment that we operate, which is not 
dissimilar to what we have to do in mines, our Navy SEALs and 
other operators have to work within this. The good news is that 
we are maturing technologies; we are delivering technologies 
that have applications in this area. Our enhanced 
communications in these environments, the things that we are 
maturing are robotics that we provided. Each of these areas 
will have benefit to this, and so I think with those short 
statements, I will wait to talk a little bit more on that.
    Senator Isakson. Thank you, Dr. Walker.
    Mr. Zamel.
    Mr. Zamel. Thank you, Mr. Chairman, Senator Murray, Senator 
Kennedy. Good morning. My name is Gary Zamel. I am the 
President of Mine Site Technologies, Incorporated. I am a 
mining engineer, and I have been in the mining industry for 35 
years. I began as a coal miner at the age of 18 while going to 
the university, and for the last 27 years, I have primarily had 
my focus on mining technology and its developments.
    I appreciate the invitation to appear before the 
subcommittee, to offer assistance and information on 
underground mine safety communications and underground mine 
tracking equipment as available today, as well as the new 
technologies that we are developing for the future.
    In particular, there are two systems that have been 
developed by Mine Site Technologies that have been subject to 
recent attention. Both have been designed to improve mine 
rescue capabilities. They are the personal emergency device and 
the miner tracker tagging system. The personal emergency device 
provides the underground miner with a means of receiving a text 
message from the surface. This is accomplished through a 
powerful low frequency transmitter on the surface that sends a 
text message to miner's battery packs.
    The digital display on the battery pack can tell the miner 
that help is coming or where a bore hole may have been drilled 
or how miners can best exit the mine, which travelways are 
clear at a particular time. In other words, any text message 
can be sent to a miner.
    The other device I have been asked to talk about today is 
our tracker tagging system, and this consists of a small unit 
that the miners carry on their person. When he passes by 
beacons located in the mine, this allows persons on the surface 
to determine what area or what zone of the mine the miner has 
gone into.
    This type of information can be invaluable at the time of a 
miner's rescue. It gives rescuers critical information on where 
miners are likely to be located. I estimate that we have over 
10,000 miners around the world who are wearing our PED 
communication system today, as we speak.
    Mine Site Technologies is also working on research and 
development which is a continuous process for our company to 
provide important advantages in these technologies. Our R&D are 
directed to both providing two-way communications and improving 
proximity protection. The key to the success of our 
technologies is that the device be able to function after a 
catastrophic event at the mine, such as an explosion.
    Much of our time and attention is being focused on ensuring 
optimum performance and reliability in all types of emergency 
conditions. We stand in support of your requirements and we 
seek the opportunity to work further together.
    Thank you.
    Senator Isakson. Thank you very much, Mr. Zamel. In the 
interest of being a southern gentleman, I am going to recognize 
Senator Murray first for a question, but give her a chance to 
think about that.
    Dr. Nutter made a statement which I think is very 
instructive for us in terms of this information, and that is 
that our discussions really should be about a postincident 
environment. We learned explosions or tragedies in mines are 
not scheduled, they are not anticipated, and we wish they would 
never happen, but this hearing is about if and when that does 
happen, what we have available or what we need to make 
available to put those miners in the best position possible.
    Second, I would like to acknowledge the presence of Jeffrey 
Kohler, Dr. Jeffrey Kohler, from the National Institute of 
Occupational Safety and Health, and appreciate his attendance 
today. Thank you, Dr. Kohler.
    Senator Murray.
    Senator Murray. Well, thank you, Mr. Chairman, and I really 
appreciate everybody being here today to help us understand 
what is available and what we need to do as a Congress to help 
provide incentives to improve it.
    Mr. O'Dell, you made a statement that the self-rescuers are 
no different today than many years ago when you were in the 
mines. I am seeing a lot of items on the table here. If you 
could tell me what you would expect, what do you think should 
be there that is not there? And maybe some of the other people 
who are here with some of their devices could tell us what they 
are. That would be great.
    Mr. O'Dell. I think the key is that every miner who works 
underground should be afforded the opportunity or to have 
access to as much oxygen as it takes them to get from the 
furthest point of the mine to the outside, and sometimes that 
is hard to say just how much that would be because a lot of 
these units are based on physical characteristics of a person.
    This unit may be good for 1 hour for some people. Maybe it 
would be good more than an hour for some, less than an hour for 
others because of their physical characteristics, as well as 
the units that are on the table to the right of me. These self-
rescuer units and these three are all the same thing we wore 
when I worked in the mine for 20 years, started in 1977.
    I think you have to look at a way--there is currently some 
folks that are working on new developments. They are looking at 
a smaller unit, maybe able to get 2 hours out of each cache, 
but even with that, I think the key is to be able to place 
those units underground strategically so that if I am in 
section A and I need to get to the outside, and the outside is 
4 miles away, that I have enough units that I can pick up or 
carry or get to the outside with if need be.
    Senator Murray. That is not available today? The technology 
is not available to store oxygen like that underground?
    Mr. O'Dell. You can store these units. You can place them 
throughout the mine in different areas. There are other units 
that you do not see here today that are stored in the mine. 
There are some mining companies that have a storage, an 
underground storage plan, that are placed.
    Senator Murray. Is it not required? Why do we not do that 
today? Why do we not have more oxygen stored underground?
    Mr. O'Dell. Well, because you can either go with a belt-
wearable, because the requirement today is just to have a 1-
hour supply, a belt-wearable unit, or if a company does not 
want to provide these type of units that miners wear on their 
belt, they have a larger unit, a cache, that they can place 
strategically throughout the mine, that a miner can pick up 
such as Ocenco or different unit.
    Senator Murray. If any of the people who are here can give 
me some more information, that would be great.
    Mr. Kenneweg. Yes. Wes Kenneweg with Draeger. It is partly 
tied to the regulations. The regulations, as I understand them, 
require at this point in time that each person underground have 
one self-rescuer available to them, and that has to be within 
25 feet. If it is more than 25 feet, then they can have them 
stored and then they can use a smaller unit. This is an old 
filter unit which filters carbon monoxide, changes it into 
carbon dioxide which is less toxic.
    With these units, we need to have oxygen present. If you do 
not have oxygen in the atmosphere, then this does not help you. 
But if you have the unit stored more than 25 feet away, then 
you can, if MSHA approves this plan, you can use this unit, or 
there is a smaller oxygen unit that is also available to get to 
the stored units. But the key is the quantity of stored units 
would probably be equal to the amount of people that are there, 
so you would have possibly 1 hour.
    These units are demand responsive in that you can get, if 
you are waiting to be rescued, barricaded, they can last up to 
3 hours.
    Senator Murray. What is hard for me to understand is that 
at least the visible mining accidents that we all are aware of, 
it takes, it seems like, a day or longer to rescue people, so 
an hour just seems like too short an amount of time.
    Mr. Kenneweg. Unless you are going to get out--the other 
option is, as you saw in Canada recently, the refuge chambers 
where someone can go to an area and wait there and some of 
those rescue chambers can provide oxygen for up to 24 hours.
    Senator Murray. But we do not mandate those in this 
country?
    Mr. Kenneweg. No. There are some rules and regulations 
regarding that, but I think MSHA could probably best discuss 
that. The other option would be to provide more self-rescuers 
in strategic locations underground so that you could get from 
point A to point B to point C.
    Senator Murray. Like they do in a submarine.
    Mr. Kenneweg. And make your way out.
    Senator Murray. Dr. Grayson.
    Mr. Grayson. Yes, Senator Murray. Concerning expectations, 
if you could visualize just for a moment that in a number of 
mines, I mean a pretty good number of mines, they may be in 
seams that are only 3 feet high. And a 1-hour supply if that is 
it, you know, crawling out, two and a half miles or three miles 
like at Sago is an impossibility.
    So certainly having more oxygen available, and caches is 
one way to do it. Another one, as the gentleman had just 
mentioned from Draeger, is the refuge stations, and I know that 
there is some debate on that, too, but you can actually get 
refuge stations or construct them yourself even out of the coal 
seam, and we mine rock above and down below at times for other 
things. We could actually establish refuge areas and have 40 
hours of oxygen or more and possibly even establish 
communications straight down to the refuge area. And if there 
is need for medical assistance, we could do that.
    Senator Murray. But we do not have that today because?
    Mr. Grayson. There is nothing that mandates it and because 
it had not been mandated and historically, especially on the 
coal site, because of the nature of the fires, it just was not 
pursued in the past.
    Senator Murray. But we do have the technological capability 
of providing that today safely?
    Mr. Grayson. Technologically we are capable of providing 
that and we could provide heat resistance and stuff like this 
after it is down below grade or above grade out of the coal 
seam itself with technology like on the space shuttle.
    Senator Isakson. On this subject, Mr. O'Dell. You have 
already spoken once on this so----
    Mr. O'Dell. But just as a follow-up, you asked if there is 
anything that mandates the use of chambers underground. 
Actually there is. There is a provision in the Mine Act that 
says that the Secretary may require operators to put in mine 
chambers and it talks about that specifically in the Mine Act. 
But the key word is that the Secretary ``may.'' It does not say 
that she will. So there is language there that can get this 
done.
    Senator Isakson. Senator Kennedy.
    Senator Kennedy. Thank you very much, Senator Isakson, for 
having this meeting here and for your strong interest along 
with Senator Murray's helping to guide our committee, and I 
think all of us should take, at least the miners take a sense 
of satisfaction. I know the chairman is strongly committed to 
doing what we can legislatively, and I think this has been true 
of other members. Senator Rockefeller and Senator Byrd and many 
others are strongly committed as well. So we want to make sure 
that we get some action.
    In listening, and this has been enormously useful, very, 
very helpful to me, it seems that there are a number of sort of 
bottlenecks here. One is a careful review of the regulations to 
find out what enhances safety and what hinders it in terms of 
the modern mine. You talked earlier about the progress that has 
been made in terms of mining and the technology that has been 
used there.
    Have the rules and regulations really kept pace with that 
in terms of safety and security? I think that that is something 
we ought to sort of think about.
    Second, I think there are a whole range of different 
technologies. I mean we have not had the chance to consider. I 
am someone that spends a good deal of time at the water, and I 
am always interested in the problems of the communications that 
they have at sea and the difference between going into deep 
areas of the oceans and also deep areas of the earth.
    I am a member of the Armed Services Committee and I 
remember in Grenada the difficulties that the Navy had in terms 
of communication between air, sea and submarines, and this was 
something that has gotten a lot of focus and attention, and 
they have made extraordinary progress. But when I hear that 
they can keep someone at 93 meters for 5 hours with oxygen in 
the ground, you know, they are doing some very, very 
interesting things in terms of these technologies.
    So, Mr. Chairman, how do we find out? And who has the 
responsibility to really be doing this sort of thing virtually 
every single day to find out where these technologies are and 
where are our companies that are doing it? What companies would 
do if they get additional kinds of incentives, and might they 
be willing to do some additional kinds of things as well, and 
who has long histories in terms of this?
    Is that NIOSH? Are we depending on them? Are they really 
doing what needs to be done, but clearly this is something, a 
review that ought to be ongoing and continuing, whoever is 
taking responsibility in safety and security of mines.
    Third, who is going to pay for it? We find out we are 
enormously interested in what is happening in fire departments 
over the past years and we are just getting the figures. My 
memory is tht funding for purchasing fire equipment was about 
$500 million last year. We will find out before long and I will 
put the right figures on in. But who is going to pay for this? 
Is this going to be the miners? Is this going to be the mines? 
Is it going to be the Federal Government?
    I mean or is it going to be some of each? You know if you 
find out that we are going to have some resources that are 
going to be out there where people are going to be incentivized 
to try to get some breakthroughs, I think you are going to find 
some additional kind of action. I think we have got to try and 
figure out where we are going with this.
    I mean are we prepared as a country and a society--I think 
we should be--to make sure that we are going to have safe and 
secure, as safe and secure workplaces, under OSHA, mines, under 
MSHA, as we can, and do we not have some responsibility? 
Clearly, the mine companies have responsibilities on this, and 
we have got to sort of think about who is going to do what here 
and try to develop some policy kind of determination so that 
those that are out there, you people that have been doing these 
things, you have got to know what the name of the game is.
    Are there resources? Where are the resources? How much is 
going to be there? What are going to be the standards? And how 
are those innovations and how is that creativity going to be 
sort of recognized within this? So that we can incentivize all 
of you. I think you are all doing enormously interesting 
different work on it and it is all enormously important. So I 
thank the chair.
    Could I ask Dr. Walker just a question about what you might 
be able to tell us about, you know, the depths and 
communication? You know obviously submarines, probably a lot of 
this stuff is classified in terms of what you are doing with 
the diving submarines or how you get ahold of them under the 
ice caps and things like that, but what can you tell us 
generally about earth and depth? Are we talking about two 
entirely different subject matters or are there lessons that we 
can learn?
    What do you think that from your own experience in terms of 
survivability of people at depths, rescue areas at depths, you 
know, with the submarines? You do a lot in terms of those types 
of activities. Could you expand just briefly?
    Mr. Walker. Senator, you are exactly correct when you 
talked about where we have been and where we are today in terms 
of communication. One of the challenges that we have had is to 
be able to provide a seamless set of communication across the 
water and into the depths of the ocean.
    The types of communications without going into a great 
level of detail extends all the way from low frequency to 
storage of information and then burst capability, linking it to 
satellites, so that if you are a SEAL in the water or you have 
a Virginia Class submarine or you have a warship on the 
surface, that you have that seamless communication and 
situational awareness of what is going on.
    Likewise, at the same time, as you look forward in terms of 
the sailor, marine, and the ability to biometrically determine 
the health of the individual in real time and communicating 
that along the same links, that is another value added. So as 
you look as an operation takes place, you know, one, where each 
of the assets are, all the way from the individual, the diver, 
the submarine, the warship, as well as being able to provide 
information on threat as well as the operation as it advances.
    All of that is there and, from my perspective, it is not an 
issue of developing new technologies. I believe we have things 
in place today that would apply to a mine capability, as Mr. 
Zamel described, in terms of a data highway and being able to 
geo-locate correctly where the people are, the health of the 
miners. I think that is all very doable today. And that is 
certainly where we are in terms of the Navy and Marines.
    Senator Kennedy. Chairman, I am sure my time is up, but I 
think this is an enormously instructive panel, and I think we 
are learning a lot and I hope our staffs are learning a lot, 
too. This is a great opportunity, I think, to make some real 
difference.
    I would just mention last year, in the Fire Act, they 
purchased--it was $500 million that was available to 
firefighters for the purchase of different equipment, and I 
think we are finding out that they--I just know from traveling 
around my own State, and I have seen it in other parts of the 
country--that they really have moved up in terms of very 
advanced kinds of technology in communication. It is absolutely 
valuable.
    We lost eight firefighters in Worcester, Massachusetts, 
going into buildings 5 or 6 years ago, and they kept going back 
in to try and find the other firefighters. All of them ended up 
getting killed.
    And it was rather interesting up in Natick where they do a 
lot of research, you know, in terms of body armor and helmets, 
and one of the things they detected is like medics in the 
Vietnam War were going out, and one of the three that these 
medics were going out under fire to try and save had already 
died. So to have the information in terms of what the condition 
of people at depths in order to protect those that are quite 
willing to risk their lives as we heard down in West Virginia 
is something that is very important as well.
    Thank you very much, Mr. Chairman.
    Senator Isakson. Thank you, Senator Kennedy. Yes, Mr. 
Shearer.
    Mr. Shearer. May I make a comment?
    Senator Isakson. Yes.
    Mr. Shearer. In response to Senator Kennedy's comments on 
seeing a need and how do we do some of these things, I would 
like to give an example of what I think can be done. We had, I 
mentioned earlier, that we are working on a new apparatus that 
is smaller, lighter, and going to be appreciably longer 
duration.
    We are doing that at our cost. We are doing it then at our 
time. That is one thing that financing can certainly help speed 
the process. We are doing the best that we can in working 
forward on it. We are working with both NIOSH and MSHA because 
one of the other things, assuming we are successful and come up 
with this product, it is going to take some changes in the 
regulations, and I just feel that now is a nice time to start 
thinking about those, and so if there is funding--certainly we 
would like funding to be able to do these projects--but we are 
doing it regardless. If you think it is important enough, you 
just proceed and do the best you can and that is what we are 
doing.
    Senator Kennedy. Could I mention one thing, Mr. Chairman, 
just one final point here?
    Senator Isakson. Yes, sir.
    Senator Kennedy. I would suggest to any of the companies, 
there is a program. It is called the SBIR, Small Business 
Innovation Research Program, out of the Commerce Department. It 
gives awards to smaller companies, up to two or three people 
for, you know, breakthrough technologies on that, and it is not 
vast, but it is over time, it is several hundred million 
dollars a year, and I just offer that thing.
    And if there are some of those that are working in those 
areas, you know, we might just write over there--it is done 
through the Commerce Department--and say that we hope that 
there are new technologies. We hope that at least they would 
give some additional kind of sympathy to breakthrough 
technologies, if we could help in some of these areas. But I 
just mention that. A lot of people do not know about it.
    Thank you.
    Mr. Shearer. I appreciate that. But another area that we 
have worked on with this apparatus and in this came on to the 
market in 1990, and over the course of time, and it is out in 
the field being exposed to whatever, things happen. So then 
what we have done is come up with devices that we put on that 
we can tell when it exceeds conditions that are not good for 
the apparatus. The apparatus will not function as well. It may 
still function, but not as well.
    So we do these things because there is a need, and so, you 
know, a lot, I think is being done, and it just maybe does not 
get around that all of this is occurring. So if we could do 
something. As I say, we went to the Government and said here is 
what we are doing; we think you need to be looking at 
regulations and, you know, I believe they are doing that.
    Senator Isakson. Yeah, I think I want to pose a specific 
Sago scenario in just a second and ask Mr. Zamel a question, 
but with regard to all of you who are here with products--
Senator Kennedy and I talked about this on the plane coming 
from West Virginia--we are aware that there are many things 
that can be a catalyst for product development. Sources of 
money is one. Ability to pay for it is two. Government 
requiring it is three. But sometimes any one of those three 
things without the ability to reasonably do it does not matter.
    So we are looking, and appreciate your comment, in ways we 
might be a catalyst to be an incentive to research and 
development and expansion for new technologies. In fact, the 
platform for this meeting is for the public to be able to see 
and for us to be able to see what is there and what is being 
done, but equally what could be done if.
    With that scenario, I want to, Senator Kennedy and I, when 
we went to Sago, we learned something very interesting that I 
really have not read that much about in the reporting. And let 
me just share it, and then I am going to ask you the question, 
Mr. Zamel.
    In the Sago mine, there were two mine teams that went into 
that mine, Team I and Team II. That mine if you could visualize 
in your head was a reverse F. It was a long 2-mile, 10,000 foot 
mine at a depth of about 267 feet at its deepest point, and at 
the deepest point, there was a chamber off to the left at the 
end, and then a second chamber a little bit closer to the front 
of the mine, which formed the letter F, if you look at it 
backwards.
    The first team got to the last chamber going to the left. 
The second team got right to the closest chamber. When the 
explosion went off, Team I was close to the chamber and they 
ended up going to the end of that wing and putting a barrier, 
which ultimately between their 1-hour breathing apparatus and 
the barrier they were able to put up, which I think was either 
polyethylene or some other material, one miner we know lived 10 
hours and one miner survived.
    Now, the other team got out, and when they got out, they 
had valuable information. They tried to go further to rescue 
the miners that they knew were ahead of them, and were stopped 
by the obvious problems of lack of oxygen, carbon monoxide, 
methane, etc.
    But they then came out with a wealth of information about 
how far you could go, what was going on, etc. Our difficulties 
were the following: we could not communicate with those miners 
at the end of that second chamber to tell them if they could 
make it so far, they could walk out. Had we been able to get 
that information to them, and given they had a 1-hour 
apparatus, it is possible, timeliness, they could have gotten 
out.
    Second, if we could have known where they were, it would 
have been immensely helpful. Neither one of those things in the 
Sago incident were possible, and from a communication 
standpoint, I have not been able to find anything that tells me 
it would have been possible for two-way communication even now.
    I am aware, Mr. Zamel, that I believe you produce two 
products. One is a paging communication that in a postincident 
environment works wirelessly. And second, a tracking product. 
Given the scenario I just described, which was, I think, 
accurately, Senator Kennedy, the Sago incident, would you 
address what your technology does? And I am not selling--I want 
to tell everybody here--I am not selling his technology and 
nobody came here to sell their technology. They came here to 
save lives.
    So after you talk about that, I would like anybody else, 
who either on the oxygen side, the location side, or the 
communication side, has a comment to please chime in.
    Mr. Zamel. Thank you, Mr. Chairman. Our technology was 
developed after a similar incident in Australia to what Sago 
has incurred, and the whole purpose of our design has been to 
allow us to keep our infrastructure out of the mine in the best 
case scenario and have our transmission system on the surface. 
So what we ideally aim for is to have no transmission equipment 
underground, no cabling underground. It is all done from the 
surface.
    The only thing that is carried underground is the receiver 
and the unit that I have here is a fifth generation receiver. 
So our design has continually advanced and improved to being 
lighter and more functional, and this is now the latest 
development which has been launched in Australia in the 
hardrock mines over the last year, and it has now been finally 
approved in Australia for use in coal mines and will be issued 
to MSHA in a matter of days for approval for the U.S. industry, 
and all of our previous approved items have been designed to 
meet the higher standards in the United States, so we have no 
problem with them.
    That would allow a text message to be sent just in the same 
way that a pager on the surface can be carried, and a digital 
display will read out a message. So that first crew of guys 
coming out of the mine, the information that was made 
available, messages could continue to be sent to the individual 
pagers for those trapped miners.
    So this system does offer a way of being able to 
communicate to personnel underground regardless of where they 
are located underground.
    Senator Isakson. Let me interrupt 1 second. Now, they were 
at a depth of 267 feet and a length of 10,000 feet into the 
earth, but that communication was still possible?
    Mr. Zamel. Yes. We have systems working in Australia over 
2,000 feet. So considerably deeper, an order of magnitude 
deeper. The low frequency transmission system that we have 
designed and developed, which has now been proven in 140 mines 
around the world, in a broad range of geology from coal to 
hardrock copper, lead, zinc mines, potash salt, has given us an 
enormous wealth of experience.
    The sort of transmission that we use is, in fact, even 
lower in frequency than that that is used in the naval industry 
from my understanding.
    So the opportunity exists to be able to communicate, and in 
Australia, where I have worked for most of my career, or all of 
my career, virtually every underground coal miner carries one 
of these devices on his belt.
    Senator Murray. How much does it weigh?
    Mr. Zamel. It weighs, this unit weighs about .8 of a 
kilogram so just over a pound. It is a third of the weight of 
the existing lead acid batteries. It incorporates lead acid 
technology which has been developed through the mobile phone 
industry, and our electronics, which is that unit there that 
sits on the top, is a sophisticated receiver that also now 
incorporates a tracker unit, so we have currently approved, 
MSHA approved, tracking device, and now we can also incorporate 
it in this same pack. So that----
    Senator Murray. You can locate the person even if they are 
unconscious? You can track where they are?
    Mr. Zamel. No. What we are capable of doing is identifying 
where men are underground in zones. So they go past a beacon. 
So this is a different technology. The tracker system requires 
a different means of backbone of telemetry, and it is a cabled 
system of beacons, and as the miner goes past that beacon, he 
will be recorded on the surface.
    So in the event of an emergency, the last known location 
will be recorded on the surface so everybody will be known at 
the time of the incident, and the greater chance would be that 
not all of the beacons are taken out. So it would only be where 
an explosion, for instance, or fire might have occurred. So as 
they come out of the mine, they could be being tracked by the 
beacons out by the working face.
    Senator Isakson. They are wireless, the beacons?
    Mr. Zamel. The beacon, from the tag to the beacon is 
wireless. The beacons are hard-wire connected.
    Senator Isakson. If the wire was severed by an explosion at 
a depth place, would the other beacons working their way back 
toward the entrance still function?
    Mr. Zamel. Yes, the out by beacons would still function, 
and I think there is a lot that still can be done in building 
in redundancy to be able to separately power in the event of an 
emergency these beacons through a UPS, interruptable power 
supply type of approach, that will allow power to come on to a 
beacon for a particular period of time in the event that cable 
is taken out.
    Senator Isakson. I am going to call anybody else. I will 
get right to you in just one second, Mr. Campman. Would this be 
a true statement or an accurate statement? In the Sago 
scenario, had there been beacons, and had they worn the device, 
we could have known the last beacon they passed that was still 
functioning, which would have given you a general location? And 
although they could not have communicated to the surface, you 
could text page to them?
    So if they were in that area at the end of the mine that 
they shielded off and had their 1-hour devices operating, which 
they did--we know that was the case--we probably would have 
known at least generally that they were that far, at least that 
far in the mine, and would have been able to tell them if you 
can get to point X, wherever the other team told them, there is 
good air? Would that be correct?
    Mr. Zamel. Yes.
    Senator Isakson. We would not know that they got the 
message, but we would know we could send it to them?
    Mr. Zamel. That is correct. I mean based on our experience, 
your statement is correct, and the beauty of this system and 
the way in which we have designed it is that reliability is 
confirmed by its day-to-day use, so that period that Dr. Nutter 
talks about at the time of the event, pre that time of the 
event, this is a system that is used day after day after day. 
So miners get comfortable with the fact that they have a means 
of communication because on a daily basis, it is used as a 
management system.
    So at the time of an event, an emergency, it is known that 
the system is functioning and reliable, and we have always felt 
that is a very fundamental advantage of this type of 
technology, that it is, apart from at the time of the event, by 
having the transmission system outside of the mine, you know 
the system is still functioning.
    Senator Isakson. Mr. Campman.
    Mr. Campman. Yes. If I may, I would like to elaborate a 
little bit more on Mr. Zamel's description for locating system. 
The technology for locating based on the type of system 
described does require an infrastructure in the mine, if I am 
correct in that.
    Some of the newer technologies, in particular one that we 
have already developed not only for the fire service but for 
security applications, allows any facility, whether it be a 
mine or a building, to be retrofitted with very low cost, 
battery powered--I am talking very long-life battery powered 
devices that will power it to 6 months to a year, that allows 
personnel to be tracked through these tunneling system.
    OK. One thing with our radio telemetry system, we have the 
ability to successfully communicate and signal in mining 
tunnels. From an engineering perspective, I am sure some of our 
other members here as well would agree that radio signaling in 
tunnel environments is very difficult, and there are special 
things that you can do to ensure that your signal propagates 
out.
    Senator Isakson. Is it the line of sight problem?
    Mr. Campman. Not necessarily. It has do with multipathing 
and signal cancellation. OK. The actual tunnels act as a wave 
guide if you will, and can actually cancel out a signal at any 
particular point in time.
    We have overcome that with our technology and one of the 
ways we have done that is either through--we use a very, not 
sophisticated, but a very clever frequency hopping method which 
we use, if you can envision a shotgun of frequencies. One 
frequency makes it a certain point and then fades out. Another 
frequency will pick up and ensure that signal gets propagated 
out.
    The point being though our system, it will allow you to 
locate miners in real time, hundreds at one time as well. We 
have that capability now to do that with a low-cost 
infrastructure in the mine. Keep in mind this is radio so we 
cannot propagate through the earth. However, knowing before a 
collapse or cave-in incident, knowing where those miners are at 
in real time is very important.
    I think what really should be thought about here is a 
hybrid technology where the through the earth type 
communications coupled with another matured technology such as 
ours could really pay significant benefit to the miners. Now, 
keep in mind a lot of this technology that we have was 
developed specifically for the firefighter service as well, so 
we are very familiar with very rough environments that the 
miners would see.
    Senator Isakson. So is it fair for me--I am going to get to 
everybody--is it fair for me to say yours is through the earth, 
yours is through the tunnel?
    Mr. Campman. That is correct. Now, keep in mind, though, 
with our system, any point within a building or a mine where 
there might be a cave-in or a collapse, where that sight, line 
of sight has been eliminated, our system has the intelligence 
to tell where that cave-in or collapse would be, and that takes 
place through our micro-repeater devices that are stationed in 
the mine.
    And again, these devices would have to be powered, but they 
also have a battery back-up which allows them to operate in the 
event of a disaster incident where power would go down.
    Senator Isakson. Is the information digital information or 
voice information?
    Mr. Campman. This is all digital signaling information at 
this time and with our system you have personnel 
accountability.
    You can tell what people are in the mine, where they are 
located, when they have exited the mine, and if they ever hit 
their panic button, and again this can be--I did not bring it 
with me, but we have a command base unit which displays and 
monitors up to 3,000 individuals at one time. This same device, 
also we have a computer platform where you can see on a PC 
screen where these people would be located.
    Senator Isakson. And your technology is in use in today's 
mines?
    Mr. Campman. Yes, it is. Not in the mine, it is not, no. It 
is in use in security and fire.
    Senator Isakson. OK. Dr. Nutter or who was next? I am 
sorry. Dr. Walker.
    Mr. Walker. Just a few comments. What I think you are 
hearing here is that you would have the opportunity to have I 
will call it a hybrid system between the two that this secure 
data highway is possible. This is not dissimilar to what we do 
in the military in terms of what is defined as military 
operations in urban terrain, where we have to know what 
operations, where people are, but also you can superimpose on 
this secure data highway with the advanced signal processing, 
to know, geo-locate people very precisely, but also to imbed 
biometrical information which lets you know something about the 
health of the people.
    And we are looking at individual sensors for people, for 
the soldiers, warfighters, that, in fact, are fairly 
inexpensive, where every individual is, in effect, a sensor 
themselves. So to the future, this sort of data highway that is 
secure, that can withstand extreme environments of explosions 
and fires, which is what we do as the Navy all the time in our 
ships and our submarines, this is very doable.
    Senator Isakson. Who is next? Dr. Grayson.
    Mr. Grayson. Actually I think Dr. Nutter was before me.
    Senator Isakson. Dr. Nutter.
    Mr. Nutter. Thank you.
    Senator Isakson. I recognize all the doctors.
    Mr. Nutter. I hope it is not that bad.
    Senator Isakson. Oh, no, not bad at all, very good 
testimony.
    Mr. Nutter. I wanted to comment about a couple of things. 
One is your comment, Senator, about Sago, where communications, 
if they had known that there was good air further out, one of 
the things that already exists are computerized mine monitoring 
systems. Some mines have them and some mines do not. I would 
say probably most mines do not, but some mines do.
    And so that is a pre-incident system with sort of a 
leftover that may exist after an explosion, but if the 
leftovers are still in existence, they can tell above ground 
where there is good air and where there is bad air. It is 
monitoring the ventilation system. So they can tell air is 
moving, air is not moving, how fast it is moving, whether it is 
contaminated with CO or methane, live real time. That 
information to a pager makes a great deal of sense. OK. But 
that, as I said, is not a requirement for mining.
    Senator Isakson. Right.
    Mr. Nutter. The second thing I want to note is that 
biodirectional communications, we tend to think of as voice, 
but after an explosion, voice may not be usable. The pressure 
of the explosion may have destroyed eardrums, so being able to 
communicate by just simply throwing a switch or sending a text 
message, if we can do that, I kind of think that may be 
difficult at that situation, too. But a switch or set of 
switches where they can communicate digitally out, I think, is 
helpful. OK.
    The third thing is tracking. The cavers have been 
communicating with voice above and below ground and tracking 
for over 20 years. That equipment exists. It is not commercial. 
It is amateurs, amateur radio operators have built this stuff. 
I am an amateur but I do not build cave equipment, but I do 
know people who do, and they can track from outside where their 
cavers are.
    In fact, they monitor and map their caves. This is a 
picture taken last Saturday outside of Riverton, West Virginia 
of some cavers above ground tracking the cavers underground, 
and they were about 300 feet underground at that point. They 
monitor the caves with this stuff.
    Senator Murray. What is that doing above ground?
    Mr. Nutter. They have an antenna on the ground and they 
have a radio. The cavers underground have a very small 
transmitter and a very large, maybe meter in diameter, loop 
antenna, which they then turn on. These guys can then take 
angles and plot the position of that transmitter.
    Senator Murray. So they know exactly where they are 
underground?
    Mr. Nutter. They know within a few meters of where they 
are, yes.
    Senator Isakson. Excuse me for interrupting. But is that, 
that slow frequency, is that similar to your technology?
    Mr. Zamel. Quite some years ago, we looked at what the 
cavers were doing and we did not see that it had the potential 
to achieve total mine coverage at mines with considerable 
depth, and when we design our technology, 200 meters really 
does not meet a large part of where the market is, so 2,000 
meters, as I am saying, is more in line.
    So we have to design or we wish to design technology that 
really could meet a much broader sector of the marketplace. I 
think if I could make the comment, we welcome this dialogue and 
we, as a company, are very interested in joint hybrid 
developments.
    We realize that there is a certain amount of expertise that 
our team holds and others have other levels of skill, and this 
is too important a subject for us to ignore or disregard the 
capabilities of other organizations including the Navy and 
private organizations. So we welcome this opportunity to work 
further with your industry and with other sectors.
    Senator Isakson. Excuse me for interrupting, Dr. Nutter. Go 
ahead.
    Mr. Nutter. No, that is fine. The only other thing I want 
to say is keep in mind that this is not commercial gear, that 
this is home-built gear. You are looking at probably at least a 
year of development and this is postincident. This is not very 
useable in its current situation as pre-incident. I think it 
could be with development, but as we were talking about, there 
is money that has to be put in those piles in order to get that 
development done. The market is small. There may be 60 to 80 
cavers worldwide who do this kind of thing. The market in 
mining is small. So development either takes a lot of time or a 
large effort at once.
    Senator Isakson. Dr. Grayson.
    Mr. Grayson. Just one elaboration. Mr. Zamel was correct on 
the installations of his experience. With antenna loops 
specifically on the surface, generally speaking, communication 
to the ground is fairly reliable. Unfortunately, in our 
instance, here in the United States, all but one are 
underground installations of the antenna loop which could be 
compromised because of the explosion as well. So I think 
properly installed, properly maintained, and then it would 
increase the reliability quite a bit.
    Senator Isakson. Anybody else? Mr. O'Dell.
    Mr. O'Dell. If I may, I would like to share something with 
you. What I have here is a report. It is an electromagnetic 
system for detecting and locating trapped miners. What is 
interesting about this report, this report was put together by 
a gentleman named James Powell, who worked for Pittsburgh 
Mining and Safety Research Center, Pittsburgh, Pennsylvania.
    If I may, I would like to just share this with you. In 
1968, when the Farmington mine disaster resulted, the National 
Academy of Engineering recommended that a postdisaster location 
system be developed, and the then Bureau of Mines, which no 
longer exists, at the time actually developed an 
electromagnetic system for detecting and locating trapped 
miners. It has been in existence since 1970.
    It is a full report. You will see in here that it has been 
tested, it has been proven to work, it passed--as a matter of 
fact, I can read the summary and conclusions. An EM system has 
been built and tested that permits the detection and location 
of trapped miners. The hardware required is compact, sturdy, in 
general practical for use in mines. Successful field tests of 
the system have been conducted at a wide variety of mines. So 
it is not something that was put together haphazardly, but we 
have had this since the 1970s.
    Senator Isakson. Whose technology was that?
    Mr. O'Dell. This was actually the Government, the then 
Bureau of Mines did this. NIOSH, I guess, is the----
    Senator Isakson. If you are in this business, you would 
like to comment on that?
    Mr. Campman. If I may, the technology you are referring to, 
which I believe is very similar to Mr. Zamel's technology, was 
actually developed in the 1980s and 1990s by Los Alamos 
Laboratories. There is another company who we have recently 
been in discussion with called Vital Alert Communications, and 
they have a low frequency system very similar to Mr. Zamel's. 
However, back in the mid-1990s when they had that technology 
developed, which this is a prototype unit of that device, there 
was no driving means for any mines to put this type of 
equipment in, and that really brings everything full circle.
    Our business started out as a niche business in the 
firefighter protection device market because those devices were 
mandated by law that every firefighter must wear a PASS device. 
Similar legislation going into the mines is not only going to 
spur development, but I think it is certainly going to open the 
eyes of a lot of private industry people to put some resources 
into that because there is enough of a market there, especially 
for companies our size, to go after.
    Senator Murray. Mr. Chairman, could I----
    Senator Isakson. Senator Murray.
    Senator Murray. And I know Senator Clinton is here. So----
    Senator Isakson. By the way, I want to apologize. This end 
of the table has been greatly improved from Senator Kennedy 
leaving in looks and Senator Clinton getting in.
    [Laughter.]
    I am sorry I did not recognize you sooner. So go right 
ahead.
    Senator Clinton. No problem.
    Senator Murray. You know this is fascinating. And there is 
so much new technology and it just begs the question: why was 
this not in the Sago mine? Why is it not there today? Is it a 
matter of we have to have a regulation to require it? Is that 
what it is going to take?
    And secondarily, the cost of it, how are we going to make 
that happen? Is it because we have not said you have to have 
this? Because it appears to me that we had plenty of technology 
out there that could have made a difference.
    Mr. Campman. I think that is part of it. And again, getting 
back to----
    Senator Isakson. What is the other part?
    Mr. Campman. Well, the other part is there has to be a big 
enough market there for companies to put their R&D resources 
in. Also, I might add that funding for the product development 
has to be there. If the company can justify it internally 
because they can get enough market share, they are going to do 
that.
    However, I believe Senator Kennedy mentioned the SBIR 
program, and other grant programs, if money is made available, 
I am sure it will spur development for these types of products.
    Senator Murray. Dr. Walker.
    Mr. Walker. Just to amplify that, it has been our 
experience for the Office of Naval Research, we find the most 
creativity is when we get a cross-section of academia, small 
business, and industry together. I mean that is really how we 
have been able to make advancements in discoveries from the 
phenomenology, but then make things real for our sailors and 
marines.
    So I think you will find that that is really a very fertile 
area for discovery, but again I do not see any technology 
challenge that would allow this not to improve mine safety, 
everything you have heard today.
    Senator Murray. Mr. O'Dell.
    Mr. O'Dell. Yes, in regard to your question about whether 
it has to be regulated to make it happen, I serve on West 
Virginia--I had a diesel committee for the use of underground 
diesel equipment in the mines. And we sat down and we developed 
regulations that are probably the most stringent regulations 
for the use of underground diesel equipment in the world, more 
so than what the Federal Government requires, more so than 
any--Pennsylvania may equal what our regulations were, what we 
came up with in West Virginia.
    And people kept saying there is no way; you cannot do that. 
You cannot force operators to put these type of filters on 
these diesel equipments; it is too costly; it cannot be done. 
There is not enough interest out there, but guess what? We made 
a regulation. The regulation was passed, and after that was 
done, there were people that came and now we have the use of 
that type of equipment with the regulations we set forth.
    So, yeah, I think it has to be regulated to force people to 
come to the table to be able to comply with what needs to be 
done in the industry.
    Senator Murray. Dr. Grayson, you had a comment?
    Mr. Grayson. Yes, just an elaboration. Market share and 
size is certainly part of the answer, but compliance with 
existing regulations does tend to dominate. I mean that is just 
a fact of life. You will see the larger leading companies who 
do in mine-wide monitoring systems. They do put in PED systems 
and things of this nature, leaky feeder systems. But they are 
truly leading and everyone else is behind.
    And I think the last part is that we probably had lulled 
ourselves into a state of--I will not call it euphoria--but at 
least a state of accomplishment over the last 20 years with the 
record and everyone was seeing the tremendous gains on both the 
injury side as well as the fatality side. And it is not an 
excuse; it is just that we probably were lulled a little bit 
and did not pursue as hard as we needed to make the technology.
    Senator Isakson. Senator Clinton.
    Senator Clinton. Thank you so much. And I thank all of the 
witnesses for being here, and I especially thank Senators 
Isakson and Murray for holding this, and I really appreciate 
the very straightforward discussion of these issues. Obviously, 
I was in another hearing and could not get here until just 
recently, but my staff has informed me that it has been a very 
open and candid discussion.
    It is troubling to me that we have technology and we are 
not utilizing it as effectively as possible, and I appreciate 
the nods when Senator Murray asked about what is the problem; 
do we need to try to mandate it, regulate it? And my 
understanding--maybe, Mr. Zamel, you could respond to this--is 
that, you know, Australia's mine safety provisions are more 
advanced than American safety or at least they appear to be, 
and is that because it is regulated and mandated?
    Mr. Zamel. It is really, the Australian industry has to be 
at the forefront of coal mining from a productivity and a 
safety point of view because we operate in the export markets 
and we suffer the vagaries of the cycles of the industry. So 
productivity and safety go hand in hand. A safer mine is a more 
productive mine and vice versa.
    We operate under a duty of care responsibility, so mine 
operators, mine owners, mine equipment suppliers are required 
to provide technology and operate that technology at a standard 
that is state-of-the-art to meet occupational health and safety 
needs.
    And I think we have constantly learned from the global 
industry and very much from the United States many aspects of 
mining, and we think that Australia is doing some very good 
work in this area, but we do not sit on our laurels. We 
continue to put effort into this, and we also will sit back and 
investigate the Sago incident and see what we can be learning 
in that industry.
    Senator Clinton. I appreciate that because I am troubled 
that in the recent budget, there are no increases for 
enforcement activities at OSHA or MSHA, not even in coal mining 
in response to the recent disasters. There is not any money for 
more inspectors to oversee mines and other workplaces, to even 
ensure that the existing regulations are being enforced, and, 
in fact, as for NIOSH, the Bush budget would cut funding to 250 
million, which is 36 million less than it even requested last 
year, and this is one of these areas where I think it is highly 
unlikely that new safety technology can be implemented in the 
absence of some Federal drivers, both funding and regulatory.
    And the additional research, the best practices, the kinds 
of lessons learned that Mr. Zamel is talking about, will not do 
us any good if they say in reports, as Mr. O'Dell pointed out, 
that are 40 years old. You know that is not progress. So I 
would hope that we can figure out a way to marry the private 
sector's interest in these new technologies, the work that is 
done in the Defense Department, NASA and other places on 
relevant technologies, and try to figure out a more effective 
response that I am sure is going to include some Federal 
dollars and regulation.
    Otherwise, I am afraid we will be back here in 5 or 10 
years, and we will be saying, gee, you know, we have not done 
it yet, and there are lots of reports that are out there. So I 
am hoping that, Mr. Chairman, we can pursue this and see what 
kind of sensible practical solutions we can come up with.
    Senator Isakson. I appreciate the comment. Let me inject 
something. I would really like for any of you experts, because 
I am not, to comment on this. But one thing I want us to all be 
very aware of, I scuba dive. Most of the things developed for 
scuba diving were developed a lot later than back in the 1970s 
and are still very similar. Now not the 93 meter stuff. I am 
not into that stuff at all. I am a 60 foot and up guy myself 
but, nonetheless, you have got atmospheres and the consumption 
of oxygen increases dramatically at every 33 feet in depth that 
you go because of the compression.
    The same thing does not happen per se in mines, but there 
is a physiological effect on the human being. There is just so 
much that you can do.
    Second, there is a weight problem. What your miner can 
carry and what, how long it will last, function together. I 
mean you would like to have a miner be able to carry 32 hours 
of oxygen, but the fact of the matter is the 1 hour weight is 
what--31 pounds; is that right? What is the 1-hour weight?
    Mr. Kenneweg. The self-rescuer?
    Senator Isakson. Yeah.
    Mr. Kenneweg. Six to eight pounds.
    Senator Isakson. Well, 31 pounds must have been the total 
weight that miners might carry with all their other stuff, but 
you end up being--so we have some limitations, you know, of 
physiology.
    Second, and it has been referred to by Mr. Shearer and by 
some others indirectly, mandating it does not necessarily make, 
on itself, make it happen. You have got to have the ability to 
realistically form the capital to make the investment, to do 
the research and development, to develop the product, as well 
as it has to be, reasonably be something that can be purchased 
given the industry that you are talking about by what it 
generates after it is over.
    I do not say that in the least bit to tamper with the idea 
of requiring anything that will make it more safe. But we have 
to require that there are some practical issues of human 
physiology and human strength and things like that, and the 
laws of physics that affect some of this stuff. So I just 
wanted to be sure I threw that in there.
    Yes.
    Mr. Grayson. Just a follow-up point because it sort of 
touches on what you are discussing. But there is sort of a 
tradeoff between the requirement of certain technologies and 
how much of it we might require and with other technologies 
that could be used, and, for instance, for my background, I 
came back from a multiple shaft mine, and we would----
    Senator Isakson. Is your mike on?
    Mr. Grayson. I think so.
    Senator Isakson. Move it a little closer then please.
    Mr. Grayson. OK. I came from a multiple shaft mine, so in 
other words, a vertical shaft going down in, rather than a 
shaft horizontal type that we are seeing in the news. But we 
had four shafts, two of them were equipped with elevators, and 
the other two had escape hoists. So that an SCSR, a single one, 
that was person wearable, all of a sudden became, you know, 
very practical because it would be less than an hour to get to 
the one shaft, and we did not have to go 3 hours or 3 miles in 
order to get our way out.
    So by having two separate and distinct escapeways that were 
actually separated physically by some distance of a couple of 
miles, then we enhanced our probability of escape with a 1-hour 
type SCSR. Unfortunately, a lot of our mines do not have that 
at this point in time. I am not suggesting----
    Senator Isakson. Do not have additional escape shafts?
    Mr. Grayson. No, no, they----
    Senator Murray. Because there is no requirement or?
    Mr. Grayson. Well, like the Sago mine. You saw the openings 
came into the mine from an outcrop, and it ran three and a half 
miles in, and they had two separate distinct escapeways, but 
they were just maybe a few hundred feet apart. The minimum 
requirement of the law was 50.
    But they came to the same spot. So when they were trapped, 
they really had nowhere else to go, neither refuge chamber or 
an escape shaft, which does not have to be a large diameter 
escape shaft. As long as you can get, you know, one or two or 
even four people on an escape capsule at one time up a vertical 
shaft, it can be a smaller diameter one.
    So what I am saying is there are some options here that the 
operators could use a small diameter shaft with escape hoist or 
refuge stations in case miners get trapped. Then we also have 
the other option of the SCSRs, placed at a certain distance, 
but still realizing that if you fill the mine up with SCSRs 
every 1,500 feet, let us say, and you have got three miles to 
go, the odds on getting to the next cache may be blocked, go to 
the third cache or something like that. So there is a tradeoff 
on what could be feasible choices in order to achieve what we 
in the end want.
    Senator Isakson. I think I--tell me if I am wrong. You just 
made a great point. I think what I hear you saying is depending 
on the type of mine and the mining operation, a one-size-fits-
all does not work.
    Mr. Grayson. Exactly.
    Senator Isakson. If I understand, the Canadian mine where 
they had the escape chamber--not the escape chamber--the panic 
room they called it, I think, or the escape chamber, that was a 
potash mine which is a whole lot different than a coal mine.
    Mr. Grayson. Uh-huh.
    Senator Isakson. And so although when I first heard that, I 
said that is the answer, and then all of a sudden I started 
asking questions, said, well, it might be the answer in a 
potash mine, but you might do something different in a coal 
mine. So what you are saying is you might take the approach, 
there may be a myriad of options from which mines, given their 
characteristics, type, location, depth, etc., might choose from 
to enhance safety; is that correct?
    Mr. Grayson. Yes, sir, that is exactly the point, and as 
long as they have the option, they can pick whichever one seems 
to be make most sense for the particular operation. And then if 
they want to choose refuge chambers, for instance, and do an 
optimal siting of where people are going to be located, and 
then pick two or three locations, not all of which will be 
compromised in the case of a mine fire or an explosion in coal, 
they still have other places to go to. Same thing with the 
shafts.
    Senator Isakson. Very helpful. Senator Murray.
    Senator Murray. Mr. O'Dell had something.
    Senator Isakson. Mr. O'Dell.
    Mr. O'Dell. I would like to speak today as a coal miner 
because that is what I am. I told you when I spoke earlier on I 
spent 20 years underground as a coal miner while I went to 
school. From a coal miner's perspective, it is really quite 
simple: give us enough oxygen to get from the deepest point to 
the outside.
    We have units that can be placed in the mines today to make 
that possible. I pointed out a report to you that was developed 
in the 1970s, so we now have the technology to locate trapped 
miners. Chambers, we like the ideas of chambers, but as coal 
miners, we are always taught that is the last resort. I think 
it is something that we should have as a backup in case our 
escape is blocked, but we should first be given the opportunity 
to try to get out very first chance.
    And there are other ways that you can do that, too, and 
that is look at the mining plans that are approved today. I 
think emphasis needs to be put on the intake escapeways being 
better protected than what they are today. A coal miner should 
never be put in a position where he has to face smoke coming 
out of the mine or he has to rely on a cable to hold on to 
because you cannot see or you do not know where you are going.
    And this can be done. I mean if you protect and you make 
the isolated intake escapeways better for the miners, you give 
them the oxygen you know they need to get from where they are 
to the outside--I worked at a mine that I could have picked up, 
not these units, but another unit, there were probably 14 units 
on the section, and I knew if I had to walk out of the coal 
mine, I knew I could pick up two every 1,500 feet if I needed 
to. So it is possible to do that.
    I would encourage everybody that is here today to move 
forward with the technology that we have, but let us not do 
like we did, you know, sit on a report from 1970 till now. And 
I really appreciate, you know, everybody putting this together 
today. I know it means a lot to our miners. It means a lot to 
us.
    Senator Isakson. I am going to ask you a tough question, 
but you just said something that really hit home with me, going 
back to the Sago situation, and I met with a bunch of miners. 
In fact, I met with the miners that got out and I met with the 
families of the miners who did not, and I think you said you 
give me the way to get out, that is number one. The chambers 
and everything else are secondary, but first choice always is 
to get out.
    I learned in that Sago situation, there were a lot of 
people who thought, gosh, if we had had a rescue team there, 
they could have got them out and everyone would have been safe, 
but the fact of the matter is that was not true. They could 
have gotten out easier than a rescue team could have gotten to 
them because of the carbon monoxide, all the other things in 
their way, because the miners that tried to get to them said 
that.
    So you are saying that a miner's first preference is give 
me the way to get myself out rather than having all these 
redundant systems for somebody to come and get me. Is that 
right? I mean not saying those are not good things. I believe 
in the rescue teams, and I know the mine companies and the 
miners do too, but the first best way is a path out and the 
oxygen accessibility to get out?
    Mr. O'Dell. Yes. Because if we have that, then we have no 
need for the other stuff.
    Senator Isakson. OK. That is an interesting point.
    Mr. Droppleman. That is why we call them self-rescuers.
    Senator Isakson. Yes.
    Mr. O'Dell. But it is important to know that the best plans 
fail sometimes, so we have to have those things in place for 
backups.
    Senator Isakson. Redundancy, right.
    Mr. O'Dell. Absolutely.
    Senator Isakson. There was a hand going up. Yes, sir.
    Mr. Kenneweg. Another thing that would help the 
manufacturers on the respiratory equipment is the approval 
process at NIOSH could be sped up. We developed products and 
then we have to go through this approval process which 
sometimes impedes the development because it takes so long.
    Senator Isakson. You are not accusing government of being 
slow, are you?
    Mr. Kenneweg. [Laughter.] Senator Kennedy mentioned the 
Fire Act moneys, and there is a special group of respiratory 
equipment being approved for chemical and biological 
protection, and that approval takes longer. There is a list of 
products there. So any of these other products that go in, it 
tends to slow those down. So more resources there.
    Another thing that could be done is to let NIOSH certify 
third party labs to do some of the testing instead of the 
testing all being done by the Government, and that could also 
speed things up.
    New test equipment, some of the test equipment, at least we 
feel, that NIOSH has is somewhat outdated. We have to do 
presubmittal testing before we submit our products to sort of 
assure that they are going to get through, and we cannot really 
duplicate all of the equipment because it is not available 
anymore. So that would be helpful.
    And we should look at some of the regulations in other 
countries such as Australia and South Africa, Canada, see what 
they are doing there. This unit here is a 30-minute unit in 
Australia and South Africa; here we probably get approval for 
20 minutes, and that has to do with the test standards. So 
maybe we need to look at being more flexible on inhalation 
temperatures and breathing resistance and things like that.
    And the duration of the units underground. The law is tied 
into this 60 minutes. We maybe need to look at, I think Don 
Mitchell who used to be with the Bureau of Mines and MSHA did 
some studies on escapes in different coal seam heights, and he 
showed, I believe the report showed that you do not need 60 
minutes all the time. Sometimes you can get by with a smaller 
unit, but at the same time, you could also give the impetus to 
the manufacturers to develop longer duration units, maybe 90-
minute units or 2 hour units.
    Senator Isakson. Were you going to say something, Mr. 
Droppleman?
    Mr. Droppleman. I would like to speak specifically to self-
rescuers and to the self-rescuer portion of this discussion.
    Senator Isakson. Please.
    Mr. Droppleman. The tracking issue is a very complex one, 
at least to implement for mines. I make firefighting breathing 
apparatus, and we do tracking and telemetry and the problem 
there is significantly different than underground, and all of 
us will admit that. Our communications to a diver is a 
different issue than dealing with mines or with tunnels or with 
buildings.
    I am a fairly significant customer of Grace with the PASS 
unit for the firefighting, and we understand the tracking 
issues. The fundamental problem today that the guys that are 
underground today is that we do not supply them sufficient 
oxygen to make an escape, and you recognized that. You saw that 
at Sago.
    And the current regulations do not differentiate between 
the performance characteristics of 60-minute approved self-
rescuers. You have a coal miner sitting over here that told you 
that he would much prefer to get out of the coal mine. I happen 
to be a coal miner from West Virginia as well. And we are not 
ganging up on you because we are from West Virginia, but the 
performance standards of the 60-minute approved self-rescuers 
vary significantly.
    I will give you one example. There is a 60-minute approved 
self-rescuer that has 157 liters of available oxygen. If you 
think of that in terms of the fuel to make an escape, that is 
157 liters of fuel. There is another 60-minute approved device 
that has 80 to 100 liters of available oxygen. You cannot 
expect one to give you the same duration and distance and 
performance of the other. One is twice as much fuel as the 
other.
    We need to recognize that in our deployment standards and 
build escape strategies around the equipment that we use. We 
can do that today, and a lot of companies do. If you go to a 
lot of major coal companies in this country, they provide a 
belt-wearable unit, a 10-minute device or a filter self-
rescuer. They provide a 1-hour stored device on the man-trip 
vehicle. They provide a stored unit on the section and they 
provide additional units in the returns or in the primary 
escape ways to get out, and you have heard that explanation 
earlier today.
    We could require that in all mines in this country. But 
what we want to do is make sure that we do not eliminate a 
viable option by regulating it away. And the policy of MSHA has 
been for the last 6 or 7 years to encourage a single device for 
miners underground. They said you can satisfy the regulation if 
you put a 60-minute belt-wearable unit on the belt. Here you 
are, go in the mine, good luck.
    And there are other mines that do not recognize that as an 
acceptable option, so they put additional units on the mine. 
They should be applauded, and they should be encouraged to--all 
mines should be encouraged to do that. And the vehicle is there 
to do it.
    Senator Isakson. Are you saying there are two different 
products, both certified as 1-hour devices, but one has the 
capacity of double the liters of the other?
    Mr. Droppleman. Yes, yeah.
    Senator Isakson. And there is no differentiation?
    Mr. Droppleman. They are both approved as a 60-minute self-
rescuer. They both meet the requirements of 60-minute approval. 
One manufacturer chose to meet the 60-minute requirement in 
the--sorry--one manufacturer chose to meet the very minimum 
requirements to get his 60-minute approval.
    The other manufacturer chose to build significant margin.
    And I think what we are talking about at Sago, I think what 
we are talking about in a lot of escape scenarios is that 
duration and performance is real significant. If you look at 
the NIOSH field investigation reports of the last 10 years, you 
will see the performance of all the devices that are available, 
and they are significantly different.
    We conduct escape trials all the time to establish what is 
the best pattern, what is the strategy for getting a miner to 
safety, preferably to the outside.
    Senator Isakson. Senator Murray.
    Senator Murray. Yes. Mr. Chairman, I have to leave, but I 
want to thank you so much for this hearing. This has been 
tremendously helpful. I learned a great deal. I know everyone 
here did, and I really want to commend Senator Isakson again 
for his focus on this issue and a commitment to work in a 
bipartisan way to move us forward in this area, and I look 
forward to working with you.
    Thank you.
    Senator Isakson. Thank you, Senator Murray. I would take 
that cue with about 10 minutes before noon to say rather than 
me asking a question, does anyone here have something to offer 
that they came to offer they have not had the chance to offer 
yet? Or have a comment on what has been offered that they would 
like to say?
    That being the case, let me tell you what my intention as 
subcommittee chair is to see to it this information obviously 
gets to the full committee. I know Chairman Enzi, who could not 
be here today because we are finally getting some movement on 
the pension conference committee, and that is his primary 
responsibility, but he has a keen interest.
    He went to the Sago mine and met with the families as did I 
and Senator Rockefeller and Senator Kennedy. This is not a 1-
day hearing for the purpose of saying we did it, but hopefully 
it is the platform for us to make some critical decisions on 
what is the best thing for us to do, both as a catalyst to spur 
development of those things that are out there that we believe 
are doable, as well as look at the standards that we have and 
the options that we have and make the very best recommendations 
we can to the Congress in the interest of the safety of coal 
miners.
    I would make a side comment too. The coal industry has 
exploded for lots of reasons lately, but primarily is the 
tremendous demand and the price coal is now bringing. And a 
couple people mentioned, you mentioned physiology, but the 
average age of the American coal miner is not in the 20s and 
30s. It is more like the 40s and 50s.
    In fact, when I met with those coal miners, I am not sure 
that I met with anybody much that was under the age of probably 
45. And with the president's remarks on our own energy 
independence and the importance for us in technologies that are 
related to coal, whether it be gassification or clean coal 
technologies or whatever, everything we can do toward safety 
helps us to attract a new generation of coal miners because you 
are never going to take the coal miner out of coal mining.
    It is just like technology has improved any number of 
professions, but it has not replaced the human being. It has 
made him more productive or her more productive. I think the 
same would be true in coal mining, and in coal mining, I think 
safety is one of those key components that leads to good 
productivity.
    So that is our desire here is to find out what is in the 
best interest of the industry and the miner and, in the end, 
the United States of America. And I thank all of our 
distinguished panelists for coming from as far away as 
Australia and other points and appreciate your being here. I 
hope you will submit any additional information that you think 
we might need or that might help us in this. I would encourage 
you to get it to the committee within 5 days, and I stand ready 
to be of assistance to any of you should you need it.
    Thank you very much, and we stand adjourned.
    [Additional material folllows.]

                          ADDITIONAL MATERIAL

              Letter From Sago Miners to the Dominion Post
                                                  February 3, 2006.
Morgantown Dominion Post,
Dominion Post,
Morgantown, WV.

    Dear Sir: We are the miners of the Sago Coal Mine in West Virginia 
that suffered the mine explosion on January 2, 2006. We have 
experienced all the pain of the loss of our brothers, uncles, cousins, 
and friends. We have watched with disgust as you have reported us as 
poor, dumb, coal miners that had to work in horrible conditions because 
we could not find work anywhere else. Well, let us tell you about our 
mine and the miners who work here.
    We work at this mine because we choose to not because we have to. 
We are proud of our mine and the miners we work with here. These men 
are well trained and operate million dollar pieces of equipment within 
the confines of the coal mine as easily as you do your riding mower on 
your lawn. We are intelligent, skilled and are aware of our 
surroundings. None of us would ever allow any condition to exist that 
would injure one of our fellow workers on purpose. Every time that any 
of us have become aware of any hazard and reported it to any member of 
the company they have corrected it almost immediately. We feel that we 
have a safe mine or we would not work here.
    The explosion we experienced occurred behind a set of seals in an 
abandoned area. I don't know of any man alive that could have predicted 
that such a thing would occur. We have a greater interest than any 
other group of persons in the world as to what occurred. We will have a 
guess but are willing to wait until the investigation is complete to 
know the real answer.
    The current management of this company and our mine has been 
portrayed by the media as uncaring about our personal safety. Nothing 
could be further from the truth. This company has put a safety program 
in place that literally puts our safety in our own hands. They have 
responded to citations issued and try to correct them immediately. They 
then discuss with us (the employees) the violation and how we can 
prevent it from happening again. This is done to get our input, not as 
a disciplinary measure. There is even talk of developing a bonus plan 
that rewards us for being safe workers. It appears this plan will 
reward individuals for attendance and safety instead of for production.
    You all seem to indicate that we have a dangerous mine because we 
received over 200 citations from MSHA over the past 2 year period. But 
again, every time that MSHA issued a citation we corrected it almost 
immediately. To tell you the truth we did not do some things very well 
that we should have. MSHA beat us up pretty good about clean up, rock 
dusting, and maintaining the escapeway. They forced us to raise our 
standards. What no one realizes is that ICG's standards meet or 
sometimes exceed those of MSHA or the West Virginia Office of Miners 
Health Safety and Training (WVOMHST), and the men at Sago soon began to 
believe that they (ICG) were sincere with regards to our safety. As a 
result of their (MSHA, WVOMHST, and ICG) efforts, we did raise our 
standards and that saved 17 miners lives. You see there was not one 
survivor of the explosion but 17.
    The ``One Left'' crew was in direct line of the explosion within 
1,000 feet but none of them were seriously injured by the blast. 
Why????? Well, we will tell you why. It was because the area of the 
mine was so well rock dusted and maintained that the explosion did not 
propagate at all. When it ran out of methane it stopped. Our 17 miners 
know how close they came to death and thank God, MSHA and WVOMHST for 
their efforts. We also thank the company (ICG) for their corrective 
actions that stopped this explosion. Our miners exited the mine safely 
in the escape way, which had recently been cleaned, roof bolted and 
screened.
    We also want to thank the mine rescue teams that came to our mine 
to try to rescue our brothers. There were men here from all over the 
country in a unified effort. A special thanks to the Consol UMWA teams 
that came to our aid without any concern for union or nonunion. They 
only considered us miners. Those teams and individual men will always 
have a special place in our hearts. We know that they took some bad 
press from some of the family members but we saw their efforts and 
admire them for it.
    We do take offense at the leadership of the UMWA for their 
statements about our mine and the indications of how unsafe we are. 
Many of us have worked at UMWA mines and would like to question why the 
UMWA leadership made a big deal out our 270 citations over a 2-year 
period. They indicated that if we were UMWA signature mine we would not 
have had so many. They stated that many of the conditions were so 
serious we should not have been allowed to operate.
    Our question to the UMWA is why does the UMWA signature mine 
McElroy in northern WV receive more than 1,830 citations in the same 
timeframe and still be allowed to operate? Why did Blacksville No. 2 
Mine in Morgantown receive 1,400 citations in the timeframe and still 
be allowed to operate? Why do Shoemaker, Robinson Run No. 95, and many 
other UMWA mines receive 500 to 1,000 per year and still be allowed to 
operate? Why, if the UMWA provide such a good safety advantage, do 
these mines have such horrific violation records? (If you are 
interested you can check these numbers, as they are public record on 
MSHA's page on the Internet.)
    We recognize that we owe a debt of gratitude to the UMWA as they 
helped the miner gain a good wage, health benefits and fought for 
safety. However, we believe that the current leadership has an agenda 
to advance at our expense rather than try to help us. They have come to 
our mine and forced their way in because of this agenda. We do not want 
them to represent us. We have elected our own representatives from 
within our miners (by a margin of over 90 percent). Why would we want a 
union to represent us whose members receive 10 to 20 times as many 
violations as we receive? We are reducing our citations and will 
succeed. We have cut the number of citations at this mine by almost 50 
percent in the past quarter. Their history has been the same for many 
years, maybe after they demonstrate that they do have safe mines we 
would be interested. We will welcome any advancement in technology that 
will help our miners communicate, be located, or extend their supply of 
oxygen. But those are all devices we never want to have to rely on. We 
first want to know what happened, where we failed (if we did), and what 
can be done to prevent any such thing from ever happening again.
    We would also ask the UMWA and it's leadership team about it's 
contribution to the Sago Fund. As it now seems, ICG started the fund 
with a 2 million dollar donation. Lots of companies and individuals 
have generously contributed to the fund as well, particularly a 
$250,000.00 donation from A.T. Massey. To date, we have seen no mention 
of the UMWA's donation. If they have that much care and concern for us, 
show it to these families.
    We just want to set the record straight. We are intelligent, 
skilled men that are working here because we want too. We have a 
brotherhood here that is close and will become closer when we are 
allowed to return to work. We will take this experience and learn from 
it and will never allow it to occur again. We all understand the risk 
we are exposed to but also know that the mine is as safe as we make it.

                                        The Miners of Sago,

                                             Craig Newsome,
                                                        Buckhannon,
                                              Jeremy Toler,
                                                            Canvas,
                                            Chester Runyon,
                                                      French Creek,
                                           Brian E. Curtis,
                                                        Buckhannon.
                                 ______
                                 
                             3M White Paper
                 3m carbon monoxide oxidation catalyst
    The topic of this paper is an oxidation catalyst for carbon 
monoxide that is also an adsorbent for organic vapors. Its potential 
applications might include significant advances for carbon monoxide 
filtration for miners and chem-bio/smoke escape hoods.
    The current oxidation catalysts for carbon monoxide that are 
available fall into three categories.

    <bullet> Hopcalite (mixed oxide of Cu and Mn)
        -good catalyst for CO oxidation but deactivated by water vapor
    <bullet> Pt/Pd on SnO<INF>2</INF>/metal oxide
        -tolerates H<INF>2</INF>O but high Pt/Pd loadings needed to be 
        effective at high CO levels
    <bullet> Nanoparticle gold on oxide support
        -very active at high RH
        -expensive due to high consumption of gold

    While these CO catalysts are effective, they each have material 
drawbacks. Hopcalite is an effective catalyst, but it is deactivated by 
water. Therefore a desiccant bed up-stream of the catalyst is required. 
The useful life of such a system is determined by the capacity of the 
desiccant bed. The Pt/Pd catalysts require high precious metal loadings 
but these are very expensive materials to be used in high loadings. 
Current technologies for making gold nanoparticle catalysts are 
difficult to scale up for commercial applications due to their poor 
reproducibility. In addition, it is difficult to reclaim the unused 
gold from these solution-based processes.

Recent 3M Developments

    3M has developed an innovative gold nanoparticle catalyst that 
overcomes these issues with available CO catalysts. This new catalyst 
works well in high humidity, is extremely effective at catalyzing the 
oxidation of carbon monoxide, is cost effective to produce, is readily 
scaled up and is also an activated carbon adsorbent. The 3M technology 
effectively uses all of the gold that is consumed in the process. This 
greatly reduces the cost of the catalyst compared to existing 
catalysts.
    The intended application for this catalyst is for respirators or 
collective protection filters where carbon monoxide is a potential 
concern. 3M OH&ESD is currently having discussions with NIOSH and MSHA 
on the potential application of this technology into mining escape 
respirators. We are also currently in discussions with the US Military 
labs for the evaluation of this technology.

Summary of 3M Catalyst Advantages Over Currently Fielded Systems

    <bullet> Effective at high humidity--no desiccant required
    <bullet> Higher activity than Pt/Pd/SnO2 catalysts
        -Lower precious metal loading
        -More efficient use of precious metal
        -Lower cost
    <bullet> Readily scaled-up
        -Necessary equipment resides in 3M manufacturing facilities
    <bullet> Excellent reproducibility
    <bullet> Capable of dual function (adsorbent and catalyst)

    For more information contact Bob Holler @ 651-736-7865, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91e3f4f9fefdfdf4e3d1fcfcfcbff2fefcbf">[email&#160;protected]</a>
                     InnerSpace Systems Corporation
  proposal for extreme duration self-rescue miner breathing apparatus
         extreme duration self-rescue miner breathing apparatus
    In response to the Sago Mine accident in West Virginia on January 
2, 2006, InnerSpace Systems Corporation of Centralia WA. (ISC) would 
like to submit the following proposal in an effort to fulfill Miner 
safety and need for a Category of lightweight, extreme long duration 
Closed Circuit rebreathing apparatus for a meaningful miner self rescue 
capability.

1.0 Introduction

Company Background
    InnerSpace Systems Corp. is a United States based small business 
known internationally as a top competitor in the manufacturing and 
development of highly innovative customized closed circuit rebreathing 
systems to support the exploration of deep/overhead sub sea 
environments, by direct manned intervention. ISC's manufacturing and 
engineering headquarters is located in Centralia, Washington. In the 
County of Lewis (HUB Zone). As a small company of dedicated experienced 
engineering and support personnel, focused solely on continuing product 
improvement, new product development, and customer service, ISC is able 
to conduct rapid engineering and prototyping that can be quickly turned 
into a final product. ISC is owned by two US military disabled veterans 
and is an ISO 9001:2000 registered company.

1.1 Intended Use

    The closed circuit Miner Breathing Apparatus (MBA) is designed to 
support mining operations in environments considered too diverse for 
current breathing systems. The MBA may be deployed in miner self rescue 
operations and miner rescuer operations that are considered outside the 
capability of current systems. The MBA diversity is due to a modular 
engineering approach. The MBA may be fitted with components to increase 
miner breathing duration or tie into other sources of breathing gases 
to include being tailored to mission specific requirements such as 
operating in water.
    The MBA may be fitted with components that support working in 
environments of extreme enclosed spaces, and areas that expose the 
miner and rescuer to toxic gases, explosive atmospheres, oxygen 
deficiency and smoke inhalation. This capability provides the miner a 
greater operational zone of safety.

1.2 Unit Description

    The ISC MBA is a lung demand driven closed circuit breathing 
apparatus (BA) that uses oxygen as its primary life support gas. The 
MBA has been designed for intensive use in hostile environments yet it 
is simple in design and construction, robustly built and provides high 
performance with ease of maintenance.
    The MBA is worn as a vest assembly that is easy to don and doff in 
enclosed and limited visibility environments. The harness assembly 
allows for ancillary gear that supports and facilitates self rescue and 
rescue of fellow miners. First aid kit, water, and communications 
equipment for each miner is provided. The harness assembly will also 
have reflective capability for light exposure and to include chemical 
lights, and white light capability. MBA may also be equipped with an 
activated miner locating system.
    The MBA is compact and low in profile minimizing entanglements and 
snags through enclosed spaces. The miner may even be dragged by another 
miner to safety with the harness assembly on. The breathing loop 
assembly has two over the shoulder counterlungs optimizing breathing 
performance and indicating the miner is breathing and easy ambidextrous 
capability for ease of reach of any of the control systems. This also 
includes the ability of a fellow miner to add life saving gas and 
insure the unconscious miner is breathing.
    The Carbon Dioxide scrubber absorbent system and oxygen cylinder 
are mounted on the harness assembly. The oxygen cylinder and the CO2 
scrubber canister are covered by a padded cover adding to aesthetics of 
the UBA or may be fitted with a hard cover for added protection. The 
MBA is constructed of black anodized aluminum, and space age state of 
the art high impact plastics.
    The breathing cycle is explained as follows; the Miner exhales into 
the mouth breathing valve (MBV) that contains the one-way check valve 
system. The MBV is connected to two flexible breathing hoses, the other 
ends of which are connected to the counterlungs and CO2 scrubber 
assembly. The Miner's exhalation breath is circulated into the exhaust 
side counter lung, through an assortment of water traps, then into the 
CO2 scrubber canister assembly. All of the exhaled CO2 rich breathing 
media is absorbed by a bed of carbon dioxide absorbent. The freshly 
scrubbed gas continues on through the inhalation counterlung and into 
the mouth breathing valve.
    The oxygen consumed by the Miner is replenished by a lung demand 
valve activated by the result of the reduction of the volume of the 
oxygen circulating within the closed breathing loop, thus oxygen 
consumption is dependent on the metabolic demands of the Miner. The MBA 
is fitted with a cylinder pressure gauge to monitor the oxygen 
pressure.

1.3 Design Parameters

    The modular approach design of the MBA gives the user options. The 
options may be utilized for the mission specific requirements dictated 
to the Miner or rescuer. The MBA may be configured with a variety of 
scrubber systems, oxygen cylinder sizes, and may also be configured to 
do fire fighting roles if the operational needs are deemed necessary or 
probable.

1.4 Duration

    The duration of the MBA can be up to, but not limited to, 6 hours 
or longer, depending on the level of effort the miner is doing that may 
consist of high heart rate from work required for escape, such as 
walking up inclines, crawling, climbing a ladder, or helping another 
miner buried in wreckage. Duration is increased by adding more oxygen 
from a supplementary outside source or a replacement oxygen cylinder, 
and installing another carbon dioxide absorbent canister if necessary.

1.5 Weight

    Weight of the MBA is contingent on the mission criteria dictating 
duration from environmental considerations. The unplanned 
contingencies, distance to travel, or miners needing medical aid and 
requiring physical help for extraction from the mine or the hazardous 
environment will require increased duration, thus requires the option 
of a greater CO2 scrubber size and oxygen supply. The estimated weight 
for such an extended range system may be 35 lbs or more. The MBA may be 
set up for non extended range duration of 120 minutes and weight may be 
lighter than 251bs and, of course, be capable in the field of adding an 
extended range package or changing out oxygen cylinders and CO2 
scrubbers systems under duress in an enclosed space. Size and 
compactness is another consideration as rescuers should be able to take 
additional systems down into the mine for entrapped miners. Current 
technology being used does not allow for compactness unless it lasts 
only 60 minutes and weighs 6 lbs which has proven to be inadequate for 
miner survivability, current systems to date with the exception of this 
proposed MBA is too large and still has a limited duration. The larger 
breathing systems are not issued to the working miner but only to 
rescue crews providing them with a limited breathing supply that cannot 
be shared, or extra sets carried for entrapped miners.

1.6 Maintenance

    The MBA is simple in design, built on state-of-the-art innovative 
construction without the unnecessary engineering and complexity based 
on out of date technology of other current technology. Currently, other 
systems require special tools, parts and excessive maintenance to 
maintain the aging or out of date technology that induces high cost to 
the end user. The MBA is designed to use off the shelf components when 
possible and utilize the best in design principles to minimize 
excessive component parts thus reducing overall operational expenses.
    The MBA requires only the common tools and work environment that a 
modern scuba diving shop facility has and no more. The MBA may be field 
repaired easily if necessary, with minimal tools that the Miner may 
have on hand.
    Scheduled maintenance of the MBA is considerably less than the 
current systems. The MBA requires minimal time to replace or repair 
unit components giving the repair technician and Miner less over all 
man hours dedicated to the service of the MBA thus allocating more time 
for training or other operational commitments.

1.7 Prototyping and Cost Estimate

    Several prototype versions are being constructed including a unit 
employing a water tolerant/fire fighting MBA configuration for multi-
mission use and marketing purposes. Other markets that will be explored 
are the civilian and commercial markets.
    Based on our current knowledge, we can produce prototype units 
suitable for testing by July/August 2006. These units will include the 
necessary components, and options. It is estimated that final 
production units could be available by December 2006 with aggressive 
testing, pending that the MBA fits into the mining community's needs.
    Final production cost of the MBA will be pending after the formal 
testing and recommendations from the testing authority. Every effort 
will be made to minimize cost to the customer and meet customer 
expectation.
    InnerSpace Systems Corp. will conduct the necessary training for 
end users and a consolidated trainer training camp. All MBA's will have 
the necessary operator's manual for the final production unit in a 
water proof format.

Summary

    InnerSpace Systems Corp. looks forward to working with the 
authorities involved in developing a useful and cost effective system 
for the Miner MBA program. All questions concerning this endeavor 
should be addressed to Leon Scamahorn CEO Innerspace Systems Corp.
 Response to Questions of the Subcommittee on Employment and Workplace 
              Safety by Wes Kenneweg, Draeger Safety, Inc.
    Question 1. What devices currently on the market provide the best 
chance for miners to escape in the event of an underground emergency?
    Answer 1. Oxygen Self-Rescuers provide the best chance of escape. 
The combined technology of a small belt-worn oxygen device in 
combination with larger stored devices located in strategic locations 
in the mine would enhance escape and rescue.

    Question 2. What are the current technical capabilities of oxygen 
supply devices in use in underground coal mines today, and what new 
developments are on the immediate horizon?
    Answer 2. There are 2 types of oxygen sources that can be used for 
oxygen self-rescuers. One is Compressed Oxygen, which requires a 
scrubber chemical to remove exhaled CO<INF>2</INF> (Carbon Dioxide). 
The other is Chemical Oxygen, which makes use of one or more chemical 
oxygen sources. The primary chemical oxygen source is KO<INF>2</INF> 
(Potassium Super oxide), which reacts chemically with moisture and 
CO<INF>2</INF> in the exhaled air of the user to absorb the CO<INF>2</INF> 
and generate oxygen.
    Another source of chemical oxygen is Sodium Chlorate which is used 
on some passenger aircrafts to generate oxygen. This is generally used 
as a ``starter'' in the Self-Rescuer lasting for only several minutes 
after which time the primary chemical, KO<INF>2</INF>, performs the 
O<INF>2</INF> generating function. KO<INF>2</INF> also has the unique 
feature of being demand responsive, which means it will provide 
automatically more or less oxygen to the user depending on his or her 
breathing rate. Thus Oxygen Self-Rescuers, with NIOSH/MSHA approval for 
60 minutes, can last 3 hours if the person is in a rest position, 
waiting for rescue.
    In Australia (New South Wales and Queensland), they make use of 
Quick-Fill Stations underground. These are banks of compressed air 
cylinders stored in a metal box at strategic locations underground. At 
each station are 60-minute SCBA's (Self-Contained Breathing Apparatus) 
that the miners can don to make their escape or wait for rescue. The 
cylinder banks allow the miners to quickly refill the cylinders on 
their breathing apparatus without doffing the breathing apparatus as 
they make their escape. The stations are located every 500 meters or 
1,000 meters. Air is considered by some to be more stable than oxygen 
in event of a fire or explosion.

    Question 3. Is the MSHA approval process helpful or hurtful in 
ensuring that miners have the latest oxygen supply technology?
    Answer 3. The NIOSH/MSHA approval process follows the current 
regulations in effect, 42 CFR for testing procedures and 30 CFR for 
underground requirements. This requires that every coal miner be 
supplied or have readily available within 25 feet, a 60-minute SCSR 
(Self-Contained Self Rescuer). The aim has always been to make the 
devices as small as possible so they are belt-wearable. Prior to the 
oxygen SCSR regulations, the miners were required to wear a Filter 
Self-Rescuer (FSR) which filters CO (Carbon Monoxide). CO is very toxic 
and present after fires and explosions. With this device, one must have 
oxygen present,  17 percent normally, although U.S. law states 19.5 
percent. These FSR's are still used in the U.S. metal and non-metal 
mines and can be used in Coal Mines to get to the stored oxygen Self-
Rescuers if the units are more than 25 feet away. Special dispensation 
must be granted by MSHA to permit this option.
    To improve the approval process, several things could be done:

    (1) Testing House: NIOSH/MSHA could certify third party labs to 
conduct the approval testing. At present approval times for certain 
respiratory protection products can run up to 1 year. This is in part 
due to the Homeland Security approval testing for CBRN (Chemical, 
Biological, Radiological and Nuclear) protection. Longer approval times 
discourage new developments in some instances.
    (2) Test Standards: NIOSH/MSHA could look at changing or 
harmonizing some of the test standards to match those of other 
countries, such as the European standards. This could, in some cases, 
allow smaller and lighter self-rescuers to be approved.
    (3) Test Equipment: Some of the test equipment at NIOSH/MSHA could 
be updated. One example is the breathing machines used to simulate 
human breathing. In order for the manufacturers to develop products 
that will meet the test standards, we must do pre-submittal testing. In 
some cases, this cannot be done precisely as the test equipment being 
used by NIOSH cannot be duplicated.
    (4) Less than 60-minutes: If the regulations could be changed to 
allow a ``primary'' device that can be approved for 30-minutes, it 
would give the manufacturers opportunities to put more development time 
into smaller, lighter devices that could be easily worn by each miner. 
At present only 60-minute devices are permitted to meet the current 
standard. Studies were done in the past which demonstrated that 60-
minute devices are not necessary for all coal mines. Shorter duration 
devices could also provide the needed protection in certain mines.

    Question 4. How can Congress be a catalyst for new innovation in 
this area?
    Answer 4. Congress could provide funding to the Federal test labs 
for human resources and modern test equipment. Other funding could be 
directed to Research and Development projects at MSHA in conjunction 
with the manufacturers.

    Question 5. If you could design the idea postunderground emergency 
oxygen supply device, what would be some of the things you would 
consider?
    Answer 5. Prime considerations are the weight and size. At present, 
KO<INF>2</INF> is manufactured in only a few countries. More research 
could be done to optimize the oxygen efficiency and breathing comfort 
of KO<INF>2</INF>. If one wants to incorporate communications into the 
oxygen device, one would have to consider going away from the bite-type 
mouthpiece with nose clip as this prevents talking which could allow 
toxic gases to enter the breathing system. An alternate method would be 
a collapsible full face mask that could be incorporated into the SCSR.

    Question 6. Realizing that perfection is always a challenging goal, 
can immediate technological improvements be made to the devices that 
supply oxygen to miners to improve their chances for survival in an 
accident?
    Answer 6. The devices can be made smaller and lighter if the 
testing regulations are changed. Larger devices, greater than 60 
minutes, could also be developed for storage in strategic locations; 
but there must be some impetus for the manufacturers to invest R&D 
dollars into such products. Part of the issue is that while the product 
is important, the total quantity in use and sold each year is small 
compared to other products sold in mining and other industries.

    [Whereupon, at 11:53 a.m., the subcommittee was adjourned.]

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
